                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-16A                                   Office of Inspections                                  February 2013




                  Inspection of
       Embassy Abuja and Consulate General
                 Lagos, Nigeria




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                                               1
Context                                                                     2
Executive Direction                                                         3
  Introduction                                                              3
  Consulate General Lagos                                                   4
  Construction and Rehabilitation of Facilities in Abuja and Lagos          4
  Terrorism and Counterterrorism Agenda                                     4
  Mission Management                                                        5
  Equal Employment Opportunity                                              5
Policy and Program Implementation                                           6
  Reporting and Analysis                                                    6
  Interagency Cooperation                                                   7
  Public Diplomacy                                                          8
  Consular Operations                                                      12
  Nonimmigrant Visa Processing                                             13
  Fraud                                                                    15
  Abuja Consular Operations                                                15
  Lagos Consular Operations                                                16
Resource Management                                                        18
  Management Overview                                                      19
  Real Property                                                            20
  General Services Office                                                  22
  Facilities Management and Safety, Health, and Environmental Management   27
  Human Resources                                                          28
  Financial Management                                                     34
  Information Management                                                   35
Quality of Life                                                            40
  Community Liaison Office                                                 40
  Health Unit                                                              40
  Overseas Schools                                                         41
  Employee Association                                                     41
Management Controls                                                        42
  Chief of Mission Certification                                           42
  Separation of Duties                                                     42
  U.S. Direct-Hire Oversight                                               43
  Consular Management Controls                                             45
List of Recommendations                                                    47
List of Informal Recommendations                                           53
Principal Officials                                                        57
Abbreviations                                                              58




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Executive leadership at this large mission is perceptive and pragmatic. The Ambassador
       and deputy chief of mission (DCM) are engaged in and concerned for the welfare of
       American and Nigerian staff in a threatening security environment.

   •   Security is an important factor in embassy staffing and operations. The regional security
       office leads a well-coordinated program to manage risk in a way that allows the embassy
       to maintain engagement throughout much of Nigeria. Security constraints have
       significantly reduced travel to the north.

   •   Embassy Abuja and Consulate General Lagos suffer significantly from staffing gaps and
       employees with inadequate experience. Recruitment is the top human resources priority
       of both Embassy Abuja and the Bureau of African Affairs, yet there is currently no
       missionwide recruitment strategy.

   •   Consular operations have recently improved, but the mission will need to be vigilant to
       ensure that unacceptable visa wait times do not return.

   •   Mission management helps sustain generally high morale, but lack of coordination within
       and between the management sections in Abuja and Lagos has diminished customer
       service (b) (5)

   •   The embassy’s analytic reporting is not sufficient. Lack of experience among the
       political/economic staff, combined with a heavy visitor load and travel constraints, has
       reduced reporting quantity and quality.




The inspection took place in Washington, DC, between September 10 and 28, 2012, and in
Abuja and Lagos, Nigeria, between October 2 and November 2, 2012. (b) (6)

                                                                                conducted the
inspection.




                                      1
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        Nigeria is one of the two most important strategic partner countries for the United States
in sub-Saharan Africa. With 170 million people, it is the most populous country in Africa and the
seventh most populous in the world. Nigeria supplies the United States 11 percent of U.S. oil
imports and receives more than $5 billion annually in U.S. private investment, concentrated in
petroleum and mining. U.S. foreign assistance to Nigeria in FY 2012 was approximately $630
million, 80 percent of which was focused on HIV/AIDS prevention and treatment. An estimated
1 million Nigerians live in the United States, and at least 30,000 U.S. citizens live in Nigeria, not
including several thousand visitors on any given day.

        The United States and Nigeria maintain a strong relationship. Cooperation in many
strategic areas, such as regional peacekeeping, has been excellent. In 2010, the two countries
inaugurated the U.S.-Nigeria Binational Commission, a formalized commitment to hold bilateral
talks on four key areas: good governance, transparency, and integrity; energy and investment;
Niger Delta and regional security; and agriculture and food security.

        Despite a number of positive political developments in recent years, Nigeria suffers from
uneven governance, pervasive corruption, high crime, steep inflation, inadequate infrastructure,
and weak health and education systems. Most alarming has been the steady rise in sectarian
violence driven by the northern Nigerian Islamist extremist group, Boko Haram, which uses
attacks on Christians and moderate Muslims to heighten religious and ethnic tensions. A deadly
attack in 2011 against the United Nations headquarters in Abuja, less than 1 mile from the U.S.
embassy, has had a serious negative impact on mission operations. Deteriorating security
conditions have resulted in severely restricted travel by mission personnel, which has hindered
the mission’s ability to maintain contacts and manage foreign assistance programs.

        Embassy Abuja and Consulate General Lagos have an authorized staffing level of 231
U.S. direct hires and 789 locally employed (LE) staff members. The operating budget in FY
2012 was $264 million. Because of the security threat, travel restrictions, and the overall
hardship of living in Nigeria, the mission finds it increasingly difficult to attract qualified, at-
grade bidders and relies heavily on stretch and excursion assignments. A high percentage of the
current staff is entry level. (b) (5)


        The embassy has begun a construction project to expand office space within the
chancery. Discussions are under way with the Bureau of Overseas Buildings Operations (OBO)
to relocate the consulate general in Lagos.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
Introduction

        The Ambassador arrived in October 2010 to assume charge of the second-largest mission
in sub-Saharan Africa. He leads a large interagency country team with diverse yet interconnected
objectives. The embassy also functions as a regional hub providing security and technical
support to 12 countries in West and Central Africa. Embassy Abuja is a focal point for numerous
high-level visits by executive and legislative delegations from Washington. The President’s
Emergency Plan for AIDS Relief (PEPFAR) program, focused on preventing the spread of
HIV/AIDS, is implemented through the U.S. Agency for International Development (USAID),
the Centers for Disease Control and Prevention (CDC), and the Department of Defense. The
PEPFAR program and CDC’s malaria suppression program together account for $600 million in
assistance. Of overarching concern is the growth of an indigenous terrorist movement, Boko
Haram, which targets Christian and moderate Muslim institutions in northern Nigeria and directs
periodic attacks on police stations, banks, and offices of international organizations in Abuja
itself.

        The Ambassador is well respected throughout the mission and in Washington for his
decisiveness, concern for morale, and communication skills. He acted quickly to resolve a thorny
Equal Employment Opportunity issue. Once he was aware of serious issues with LE staff health
insurance, he solicited input from LE staff and met with Department of State (Department)
officials during consultations in Washington.

        The DCM assumed his responsibilities in August 2010 and enjoys the Ambassador’s
confidence. The DCM’s empathy and in-depth contacts with Nigerian officials complement the
Ambassador’s effectiveness. However, there is serious need for improvement in recruitment,
administrative support, and management controls within the mission, which will require the
direct involvement of both the Ambassador and DCM. Washington-based consumers of mission
reporting are pleased with Consulate General Lagos’ contributions, but Embassy Abuja does not
do enough broadly sourced, analytic reporting.

Recruiting

        Mission Nigeria is a Service Needs Differential post. Most positions are filled with
officers who are out of cone, or whose personal rank is one or two grades below the position. At
the time of the inspection, Embassy Abuja and Consulate General Lagos combined had over 40
employees either in stretch positions or on out-of-cone excursion assignments. The lack of
experienced, mid-level managers and officers reduces the quantity and quality of reporting.
Although recruitment of officers with adequate experience is the top human resources priority
missionwide, there is no missionwide recruitment strategy. The Ambassador and DCM must take
the lead in developing this strategy.

Entry-Level Officer Program

        Staffing in both Abuja and Lagos includes large communities of entry-level officers. In
several cases entry-level officers occupy mid-level officer positions that require greater

                                       3
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

experience. They are highly motivated and productive, but more training and mentoring is
needed, especially where entry-level officers encumber nonconsular positions.

Mission Strategic Planning Process

        The Ambassador led a missionwide deliberative process of drafting the FY 2013 Mission
Strategic and Resource Plan and the related FY 2014 Mission Resource Request. 1 The process
included meetings of working groups drawing on a wide range of sections and agencies in the
mission, as well as an “off-site” preparatory to drafting the plan. The work requirements of
officers in the economic and political sections reflect the above goals. Recently arrived
counselors reported that the Mission Strategic and Resource Plan served as a guide to mission
priorities when they arrived at post.

Morale

       Morale is generally high in both Abuja and Lagos. Security restrictions limit the
mission’s outreach effectiveness (especially in the Muslim north) and to some degree undermine
morale.

Consulate General Lagos

        The consul general in Lagos assumed charge in August 2012. He enjoys the confidence
of his staff and has articulated his commitment to make Lagos a desirable place to work and live
for consulate staff and families. Housing upgrades and an innovative ferry boat service
contribute to high morale, but recruiting for Lagos remains a problem. A concerted effort to
inform Washington of the advantages of assignment to Lagos is needed.

Construction and Rehabilitation of Facilities in Abuja and Lagos

         Improving physical plant in Abuja and Lagos are front office priorities. A large-scale
OBO extension of the chancery in Abuja is proceeding close to schedule, and by early 2015 new
facilities will facilitate complete consolidation of the mission’s various agencies, now scattered
across the capital. In Lagos, the consulate general must focus attention and concern on the
structurally compromised physical plant. A new consular annex has met only part of the space
requirements needed to address an increasing workload.

Terrorism and Counterterrorism Agenda

        The Ambassador is aware of challenges posed by security restrictions on in-country
travel but has registered his resolve to see that security mandates are respected and implemented.
The Ambassador effectively reconciles security restrictions with the requirement that Mission
Nigeria meet its outreach responsibilities in all parts of the country.




1
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The Mission Resource Request (3-year strategic plan, with shorter annual resource requests)
replaced the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                           4
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The rise of Boko Haram as a major challenge to the Government of Nigeria’s authority in
the north, and by extension to American interests in Nigeria, has moved center stage during the
past 4 years. The most recent session of the U.S.-Nigeria Binational Commission took place in
Port Harcourt, near the Niger River Delta, during the inspection. The Ambassador expressed
U.S. concern over the Government of Nigeria’s reluctance to see the Boko Haram insurgency as
a threat to the stability of Nigeria as a whole rather than a matter of concern only in the north.

Mission Management

         The proactive engagement of the United States in Nigeria is confirmed by the regional
work of eight U.S. Government agencies in Lagos and an additional four in Abuja. The
Ambassador exercises hands-on management of the consulate general in Lagos and non-
Department agencies in country. Embassy Abuja hosts 10 long-term, rotating temporary duty
employees: the Military Information Support Team – 3 positions; Special Operations Force
Liaison Element – 1 position; Civil Military Support Element – 4 positions; Special Agent (Legal
Attaché) – 1 position; and the Drug Enforcement Administration – 1 position. Their functions
have evolved over time and have not been regularized to reflect the mission’s real workload and
to facilitate accurate reimbursement for administrative support costs.

Recommendation 1: Embassy Abuja should initiate National Security Decision Directive 38
requests with the Office of Management Policy, Rightsizing, and Innovation for the 10 U.S.
direct-hire positions filled with long-term, rotating temporary duty employees. (Action: Embassy
Abuja)

Equal Employment Opportunity

        Both the embassy and the consulate general manage active Equal Employment
Opportunity programs with trained American counselors. Consulate General Lagos has a trained
Foreign Service national Equal Employment Opportunity liaison, but the embassy has not named
a liaison, as encouraged by 3 Foreign Affairs Manual (FAM) 1514.2 d. Some local staff may be
uncomfortable approaching an American counselor regarding Equal Employment Opportunity
issues, so a liaison would increase the program’s outreach.

       Informal Recommendation 1: Embassy Abuja should appoint a Foreign Service
       national Equal Employment Opportunity liaison and publicize the contact information.

       The mission has designated Federal Women’s Program coordinators for Abuja and Lagos
and publicized their contact information as required by 3 FAM 1514.2 b.




                                       5
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting and Analysis

       Because of Nigeria’s strategic importance, a range of Washington agencies closely track
developments in the country. Washington consumers of Mission Nigeria’s reporting products
lauded the mission’s timeliness and responsiveness to requests for information, especially
regarding political-military and security issues. Fast-breaking events, such as the national strike
in January 2012, and the public reactions in September to an anti-Islamic movie, have been
covered within hours by spot reports, with more comprehensive analysis following soon after.
Department end users reported that Embassy Abuja’s draft submissions for mandated reports (for
example, on human rights, trafficking in persons, and religious freedom) are “well done and on
time.”

         A number of Washington users consider the mission’s in-depth analytic reports to be
insufficient in quantity or breadth of coverage, particularly regarding the northern half of the
country covered by Embassy Abuja. Consumers recognized that travel restrictions in the north
have reduced access to local officials and civil society there, but these are precisely the regions
of greatest concern. Other factors reducing analytic reporting output are the large percentage of
first-tour officers in political and economic reporting positions and the mission’s heavy visitor
load.

        End users in the Bureau of African Affairs noted the absence of reporting plans in the
political and economic sections and expressed the desire to review and provide input to future
reporting plans. The inspection team confirmed that Abuja’s political and economic counselors,
who arrived at post shortly before the inspection, had begun developing reporting plans. Lagos
had a plan in place, which contributed to its high output of broadly sourced spot and analytic
reports. Coordinated reporting plans provide guidance to relatively inexperienced reporting
officers and help ensure coverage of issues important to Washington.

Recommendation 2: Embassy Abuja should develop reporting plans with a focus on increasing
analytic reporting. (Action: Embassy Abuja)

Political and Economic Staffing

        The political and economic counselors in Abuja are both experienced officers filling
positions designated at the senior officer level. The two counselors and the political/economic
chief at Consulate General Lagos all face challenges supervising sections composed substantially
by officers in their first assignment. Seven of 10 mid-level political and economic positions in
Abuja are filled by first-tour officers. The relative lack of mid-level officers has reduced
reporting output, particularly in-depth analysis; section managers are compelled to spend
considerable time providing basic guidance and training to the majority of their staff.

Leahy Vetting

       Mission Nigeria carried out Leahy vetting for 1,377 individuals in FY 2012; training
applications from 211 were rejected or suspended because of human rights concerns. An entry-

                                        6
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

level officer in the political section coordinates vetting. Two political entry-level officers serve
as backups. All three officers have been trained and use the computerized International Vetting
and Security Tracking system, the Department’s database for Leahy vetting. A recurring problem
has been the late provision of trainees’ names by the Nigerian military, which results in
difficulties for the mission to complete multiple checks at post and in Washington in time for the
training. The political section is working with the consular section and others to provide more
time for thorough checks.

Interagency Cooperation

        The Ambassador and DCM receive high marks for fostering a productive team approach
to issues. Interviews with senior representatives from agencies with a permanent presence, such
as CDC, USAID, the Drug Enforcement Administration, Foreign Commercial Service, Foreign
Agricultural Service, and Federal Bureau of Investigation, revealed unanimous agreement that
the front office understands and supports their programs in foreign assistance, law enforcement,
and commercial promotion.

President’s Emergency Plan for AIDS Relief

        Nigeria’s approximately 3.5 million HIV-positive individuals constitute the second
greatest burden of HIV/AIDS care and treatment worldwide. Adding to this burden are more
than 2 million children orphaned by AIDS and one of the highest tuberculosis rates in the world.
In FY 2012, the United States provided Nigeria almost $480 million in HIV/AIDS-focused
health assistance through the PEPFAR program. Nigeria’s is the second-largest PEPFAR
program in the world, and PEPFAR accounts for the vast majority of the $630 million in U.S.
assistance to Nigeria. Three agencies implement the majority of the PEPFAR program: CDC,
USAID, and the Department of Defense, which works directly with the Nigerian military.

       U.S. Government HIV/AIDS experts in Washington and the mission praised the
Ambassador and the DCM for fostering cooperation among implementing agencies; thoroughly
understanding, though not micromanaging, funding streams and program details; and lobbying
the Nigerian Government to take increased responsibility for anti-HIV/AIDS efforts.

         In Nigeria, a contract employee reporting to the DCM and Ambassador coordinates the
PEPFAR effort. The three implementing agencies credit the coordinator for their cooperation and
ability to divide funding and coordinate programs without rancor.

         The mission is grappling with three main PEPFAR challenges: First, results in Nigeria do
not meet those in other African countries with similar funding. (The Office of the Global AIDS
Coordinator has established a team to assess the cause.) Second, the Nigerian Government is not
on track to meet the funding commitments it made in the 2010 U.S.-Nigeria Partnership
Framework, which requires a 50-percent funding contribution by Nigeria by 2015. Third, travel
restrictions in the north weaken U.S. Government oversight of local implementing partners. In
response, the PEPFAR team is restructuring the implementation framework to maintain a
transparent program with effective U.S. Government oversight.




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Commercial Advocacy

        Embassy Abuja and Consulate General Lagos advocate for U.S. companies despite
limited economic/commercial officer resources at both posts. The Foreign Commercial Service
and the Foreign Agricultural Service both have offices in Lagos, currently with one U.S. direct-
hire officer each. Both report strong support from embassy leadership and good cooperation with
the economic sections in Abuja and Lagos.

       Agencies coordinated to bring to conclusion several important export sales, including an
$880 million purchase of U.S.-built aircraft by a Nigerian carrier. The mission, led by the
economic section, also worked with the Nigerian Government to encourage flexible
implementation of a new local content law, which had threatened to shut down international oil
operations and subject foreign companies to large fines. The government now is implementing
the law in a way that protects Nigeria’s interests and the equities of U.S. petroleum companies.
During the past year the mission hosted three energy-focused visits by delegations of U.S.
businesses and senior officials.

Law Enforcement and Antiterrorism

       In addition to the regional security officer, two other law enforcement agencies are
permanently represented in Mission Nigeria: the Drug Enforcement Administration, located in
Consulate General Lagos, and the Federal Bureau of Investigation with offices in both Abuja and
Lagos. A Civil Service employee from the Bureau of International Narcotics and Law
Enforcement Affairs is stationed in Abuja and coordinates law enforcement training programs.

       The DCM chairs a monthly law enforcement working group and delegates most day-to-
day coordination to the senior regional security officer. In addition, the Ambassador and DCM
hold bimonthly video conferences with all law enforcement agencies.

       The economic and political counselors have completed the Department’s two main
counterterrorism courses, but only one other political officer had taken both courses.

Public Diplomacy

        As sectarian violence in Nigeria has increased in recent years, so have the challenges
facing the mission’s U.S. public diplomacy effort. Security constraints limit travel to large areas
of Nigeria, complicating efforts to maintain contact with important audiences, especially in the
predominantly Islamic north. The public affairs sections (PAS) of Abuja and Lagos have
responded with a range of programs to maintain dialogue with the Nigerian public. PAS has
incorporated all public diplomacy elements of the Mission Resource Request into an
implementation plan that it reviews quarterly. Because of the strategic importance of northern
Nigeria, PAS has developed a specific public diplomacy plan for that region.

       PAS Abuja consists of 4 U.S. direct-hire positions and 24 LE staff positions. PAS Lagos
has 2 U.S. direct-hire and 12 LE staff positions. The country public affairs officer in Abuja has
open access to the Ambassador and DCM and participates in all country team meetings.


                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Public Affairs Section Lagos

Personnel

       A survey of position descriptions for the 12 LE staff positions at Consulate General
Lagos revealed that only 1 had been reviewed within the past year and certified as up to date, as
required by 3 Foreign Affairs Handbook (FAH)-2 H-443. The remaining position descriptions
had not been reviewed for 2 to 10 years. The survey also revealed differences between work
requirements in some of the outdated position descriptions and work actually being performed by
the employees.

       Informal Recommendation 2: Embassy Abuja should review and certify that all
       position descriptions for the locally employed staff in the public affairs section are up to
       date.

Information Outreach

        To meet the challenges created by security restrictions, the public affairs team has responded
with a proactive program to maintain contact with key audiences, especially in the north. Under the
direction of the information resource officer resident in Abuja, PAS manages an information
outreach program through two Information Resource Centers. One center is colocated with the
educational advising center at Embassy Abuja, and the second is located within the consulate general
in Lagos. The centers coordinate a network of 10 American Corners throughout Nigeria. An 11th
American Corner is scheduled to open in late 2012. PAS produces several products targeted to
specific audiences, including a bimonthly English and Hausa language print and electronic newsletter
on mission strategic themes. Each American Corner also hosts an average of two program events
each month. PAS has memoranda of understanding with all American Corner partner organizations
and brings the American Corner directors together twice a year for planning and training. PAS has
not hesitated to terminate collaboration with a host organization for nonperformance and has closed
two American Corners in the past 3 years.

        One Information Resource Center specialist in Abuja maintains the mission Web site and all
social media platforms. The Web site is easy to navigate and regularly updated. Particularly
noteworthy is the mission’s Facebook page, which, at the time of the inspection, was engaging more
than 38,000 Nigerian participants, and the mission’s electronic blog, which conducts electronic
discussions on bilateral policy issues.

        Some 80 percent of Nigerians rely on radio as their principal news source; PAS works with a
number of national and regional stations, particularly in the north. One effective initiative, entitled
Greetings from America, draws on the talents of 10 to 15 Nigerian students attending universities in
the United States. The students share their American experiences in prerecorded interviews that are
broadcast several times each week throughout northern Nigeria. The students also respond to
questions about Islam in America and other issues of interest. The program reaches an estimated 60
million people. Once managed by the Bureau of International Information Programs, it is now
managed by a private contractor.




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Grants Management

        The section’s grants program is aligned with the mission’s strategic objectives. In FY
2012, PAS issued more than $3 million in grants, which included the Ambassador’s Self-Help
Fund, PEPFAR community grants, and grants for non-Department agencies. The country public
affairs officer, information officer, and cultural affairs officer are certified as grants officers in
Abuja. Several of the PAS LE staff members serve as grants officer’s representatives and have
received grants training. The Office of Inspector General (OIG) team examined a selection of
grant files and found them to conform to Department requirements.

       During FY 2012, PAS Lagos also issued grants totaling approximately $100,000,
including a number from non-Department agencies. Although the two new American officers
have grants officer training and had valid grant officer warrants during their most recent
assignments, neither had transferred their warrants to Lagos. There are no other grants officers at
the consulate general in Lagos.

       Informal Recommendation 3: Embassy Abuja should require the two new public
       affairs officers in Lagos to reapply for new grants officer certificates of appointment with
       the Office of the Procurement Executive.

        One LE staff member at PAS Lagos maintains grants files, which are complete. Only two
other members of the LE staff have received training and can serve as grants officer’s
representatives. To provide adequate backup, additional LE staff need training to serve as grants
officer’s representatives.

       Informal Recommendation 4: Embassy Abuja should arrange for additional grants
       officer’s representative training for the locally employed staff in the public affairs section
       at Consulate General Lagos.

Military Information Support Team

        PAS Abuja has developed a collaborative relationship, which spans several years, with
the Department of Defense Military Information Support Team. The team consists of two
American officers and one LE staff member who occupy offices in PAS Abuja and work with
the PAS team to support common Mission Resource Request goals of counterterrorism,
countering violent extremism, and promoting Muslim-Christian tolerance. Recent projects have
included providing Hausa language educational textbooks for Islamic children, conducting
public affairs training for the Nigerian military and police force, and producing thematic
programs with Nigerian radio stations.

Exchanges and Cultural Affairs

        PAS manages a portfolio of U.S.-funded exchange programs that in FY 2012 sent more
than 100 Nigerian students, professionals, and officials to the United States. All elements of the
mission are involved in the nomination of exchange program participants. The creation of an LE
position to coordinate alumni activity has resulted in increased alumni outreach and an average
of three alumni-specific programs each month. A new initiative involves the creation of youth
alumni councils to propose community projects, which are funded by the mission.
                                        10
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Educational Advising

       With more than 7,000 Nigerian students attending universities in the United States,
educational advising is an important area of PAS operations. Education advising centers are
located at the embassy and consulate general. The centers operate a fee-based membership
program for Nigerians interested in studying in the United States as well as a free program for
economically disadvantaged students. Both centers operate fund recycling accounts through the
Bureau of Educational and Cultural Affairs and coordinate closely with their consular sections.
Consular representatives serve as speakers during college fairs, visa orientations, and other
outreach programs.

Internal Communication

        Although PAS communicates effectively with audiences throughout Nigeria, internal
communication within PAS requires attention. Employees were often not aware of recent policy,
budget, and program decisions that have a direct impact on their work. They were not included in
the discussion process but simply informed of the decision. The country public affairs officer
maintains a regular schedule of meetings with PAS employees, including a weekly digital video
conference that includes employees in Abuja and Lagos. The country public affairs officer could
improve the quality of communication within the sections by bringing relevant employees of
both posts into the discussion phase of the decision process.

       Informal Recommendation 5: Embassy Abuja should require that the country public
       affairs officer improve communications within the mission’s public affairs sections by
       involving employees in the discussion of policy and program issues.

Moveable American Spaces

        In early 2011, the Bureau of International Information Programs launched an initiative to
equip posts with American-branded display platforms that can be transported and assembled at
program events with partner institutions. Embassy Abuja and Consulate General Lagos were
selected to test the new product. The Bureau of International Information Programs shipped one
platform to each post. A unit occupies several large shipping cases, requires considerable storage
space, and costs the Department approximately $30,000 to produce.

        The shipment to Lagos was received and the moveable space module is being used by
PAS Lagos at off-site program events. In contrast, when the moveable space shipment arrived at
Embassy Abuja, the general services office notified PAS that warehouse space was inadequate to
store the module. The OIG inspection team surveyed embassy warehouse capacity and
determined that space was available for the PAS module. Without discussing options with key
members of the PAS staff or with the Bureau of International Information Programs in
Washington, the country public affairs officer decided to sell the module at a public auction
conducted by the general services office. The module was sold to a private Nigerian in August
2012 for approximately $800, a loss to the U.S. Government of approximately $29,000.

        This action was in clear violation of 14 FAH-1 H-710, which states that government
property should always be redistributed within an agency rather than sold if cost effective. If
there had been communication with the Bureau of International Information Programs before the
                                       11
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

sale was made, it would have instructed PAS Abuja to initiate shipment to another post in need
of the material at the bureau’s expense.

         More seriously, the product was clearly branded with several prominent U.S.
Government seals and insignia and sold at public auction in violation of 14 FAM 417.3. Given
the level of corruption and fraud and the growing terrorism threat in Nigeria, the consequences of
this action could be serious.

        The OIG inspection team urged the country public affairs officer to take immediate
action to recover the product from the purchaser, and the embassy was able to repurchase the
module for $3,000. Embassy Abuja must now either use the module as intended and store it
properly or work with the Bureau of International Information Programs to transfer the module
to another post.

Recommendation 3: Embassy Abuja, in coordination with the Bureau of International
Information Programs, should determine whether to use the moveable space program module or
transfer the module to another post. (Action: Embassy Abuja, in coordination with IIP)

Consular Operations

        U.S. consular officers operate in a challenging environment in Nigeria, with pervasive
fraud, critical crime and terror threats, unreliable civil institutions, and burgeoning workloads.
Historically, the challenge has not been met by consular leaders, resulting in 6-month
nonimmigrant visa appointment wait times—among the Department’s longest. The visa
appointment backlogs complicated all mission operations as Nigerians sought to circumvent the
unreasonable visa queues. Although the nonimmigrant visa backlog defines consular operations
in Nigeria, the mission also has a growing American citizens services workload and a substantial
immigrant processing unit.

        In February 2012, a consular management assistance team visited Nigeria. Their March
2012 report contained 32 recommendations and a request that the country consular coordinator
inform the Bureau of Consular Affairs “as soon as possible” on the steps being taken to
implement the recommendations. More than 6 months after the request, Mission Nigeria has not
reported on its progress. The Bureau of Consular Affairs invested considerable resources to study
consular operations in Nigeria. That investment is wasted if Nigeria does not take the report
seriously.

Recommendation 4: Embassy Abuja should report to the Bureau of Consular Affairs on the
steps taken to implement the recommendations contained in the report of the consular
management assistance team that visited Nigeria in February 2012. (Action: Embassy Abuja)

Management, Coordination, and Common Consular Issues

       A country coordinator based in Lagos oversees consular operations. Although the new
coordinator brings considerable diplomatic expertise and has helped obtain additional resources
from the Department, coordination is a work in progress. There are few missionwide standard
operating procedures and little interaction among the staff. In the past, no one coordinated
nonimmigrant visa appointment scheduling between Abuja and Lagos. Appointment wait times
                                       12
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

in the first three quarters of 2012 were widely divergent, with Abuja averaging about 5 months
and Lagos only 2 months.

       Informal Recommendation 6: Embassy Abuja should coordinate mission nonimmigrant
       visa appointments through the country consular coordinator so that wait times are
       consistent within Nigeria.

       There has never been a missionwide consular teambuilding meeting to instill a sense of
mission and to develop harmonized approaches to common challenges. Consular operations in
Abuja and Lagos operate independently, with little coordination of policies, procedures, or
personnel, including visa procedures, antifraud efforts, warden messages, public diplomacy, and
emergency preparedness.

       Informal Recommendation 7: Embassy Abuja should convene a consular conference to
       discuss better coordination of policies, procedures, and personnel.

        The backbone of the consular operation in Nigeria is the cadre of entry-level officers. The
new officers have been particularly effective in Abuja, where the section chief is the only mid-
level officer. However, there is considerable confusion among the entry-level officers on their
responsibilities, who they report to, when or if they will be able to rotate to other consular
portfolios, and when they will be able to do professional development projects. The OIG team
discussed with consular management the need to have clear expectations for the officers’
professional development.

        In times of crisis, such as during times of unacceptable appointment backlogs,
professional development activities should not detract from the goal of reducing the backlog.
These activities can include projects to enhance visa operations, exchanges within Nigeria, and
after-hours representational events. Once the backlog is within the worldwide guideline of 30
days, activities that take resources away from the section, such as working as a visit control
officer, traveling in country, performing temporary duty at another post, or working on a project
in another section, are possible. Ideally, the entry-level officers would participate in the creation
and implementation of such a professional development plan.

       Informal Recommendation 8: Embassy Abuja should implement a professional
       development program for entry-level consular officers.

Nonimmigrant Visa Processing

        The OIG team arrived after a summer of gaps in consular staffing caused by
reassignments and medical leaves. By early October 2012, however, visa interviewing officers in
Abuja routinely finished interviewing well before noon, and only a fraction of the consular
officers in Lagos were dedicated to full-time visa interviewing. During the inspection, Abuja
took bold steps to focus resources on the backlog, and the Department allocated additional,
temporary, visa adjudication resources, including four officers in Lagos. These actions were
helpful, but challenges remain.

       If the consular sections continue the aggressive nonimmigrant visa appointment
scheduling needed for success, they will require mission support. If an unforeseen circumstance
                                        13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

threatens visa production, they will need to focus all consular resources and receive assistance
from the entire mission. Only a whole-of-mission effort will overcome the backlog.

       Informal Recommendation 9: Embassy Abuja should establish a plan that allocates
       nonconsular resources, as required, to eliminate the nonimmigrant visa appointment
       backlog.

        In the 2 months of the inspection, the mission fundamentally changed its appointment
policies, and both sections increased their adjudicating capacity through temporary staff. This
change coincided with the arrival of permanent staff and ended the summer staffing gaps.
Mission Nigeria still needs to make its visa processing more efficient. The OIG team discussed
possible improvements with consular managers, including expansion of the business visa
program to identify and segregate likely well-qualified applicants, taking advantage of waivers
of personal appearance when warranted, and increasing reciprocal visa validities.

       Informal Recommendation 10: Embassy Abuja should revise visa processing
       procedures with the goal of increasing the efficiency of operations.

Referrals

      The nonimmigrant visa referral program in Nigeria runs well; however, LE staff
members were confused about their eligibility for referrals. The OIG team counseled mission
management to reach out to the LE committee to explain how LE staff may apply for U.S. visas.

Wilberforce Counseling

       The William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008
requires that consular officers inform applicants for certain domestic visas of the legal rights and
resources available to aliens applying for employment- or education-based nonimmigrant visas.
Telegram 09 State 67921 requires that the interviewing officer make a notation of the
Wilberforce counseling in the nonimmigrant case file. A review of a sample of cases from Abuja
and Lagos found that only a small percentage of required notifications were completed. In
addition, the pamphlets officers were distributing were crudely photocopied versions.

Recommendation 5: Embassy Abuja should distribute a professionally produced pamphlet
outlining the rights of workers in the United States to all applicants for nonimmigrant worker or
education visas. (Action: Embassy Abuja)

Visas Viper

       During the 12 months prior to the inspection, Visas Viper monthly submissions in Abuja
were timely and correct. In addition to the monthly reports, the embassy submitted scores of
names, reflective of a robust and effective program. In Lagos, however, 3 (October 2011,
November 2011, and February 2012) of the 12 reports required by 9 FAM 40.37 N5 were
missing.

Recommendation 6: Embassy Abuja should implement controls so that the two consular
sections submit monthly Visas Viper activity reports promptly. (Action: Embassy Abuja)
                                        14
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Fraud

        Fraud in Nigeria is pervasive. False documentation of any kind is available, and even
genuine civil documents are suspect. Security threats constrain consular officials from
investigating fraud in most of the country. Identity fraud is a direct risk to U.S. security, as the
true identity of the applicant is not certain. Most nonimmigrant visa applicants suspected of fraud
are simply refused under Section 214(b) of the Immigration and Nationality Act—at a rate of
about 45 percent. For immigrant visa and U.S. citizenship services applicants, countering fraud is
more complicated.

        Each consular section has a fraud prevention unit bolstered by two assistant regional
security officer-investigators (ARSO-I) offices. There are two ARSO-Is in Lagos and one in
Abuja. They have had significant successes identifying organized criminal activities related to
border security. But consular fraud prevention is hindered because the ARSO-Is are not as
integrated into the consular section as they should be. The ARSO-Is work less than 80 percent of
their time on border security. Pursuant to the memorandum of understanding between the
Bureaus of Consular Affairs and Diplomatic Security, an ARSO-I should spend 80 percent of
his/her time performing border security functions and should be tasked with regional security
office programmatic duties only during threat situations or in support of high-level visits. This
lack of integration is especially a concern in Lagos because the ARSO-Is do not have offices in
the consular section.

Recommendation 7: Embassy Abuja should require that assistant regional security officer-
investigators spend 80 percent of their time on border security. (Action: Embassy Abuja)

        Informal Recommendation 11: Embassy Abuja should allocate a workspace in the
        consular section for the assistant regional security officer-investigators.

Abuja Consular Operations

        The Abuja consular section provides nonimmigrant visa and American citizens services.
It is understaffed. The pressure caused by the numerous staffing gaps, 6-month visa appointment
wait times, and endemic fraud have affected the management of the section and diverted focus
from important tasks, such as adjudication review. This situation is exacerbated by the fact that
there is only one mid-level consular position in Abuja.

Facilities

        The embassy in Abuja has a well-designed area for consular intake and waiting. The
process is well organized and professional except for signage. Security guards must direct
confused clients to the proper window. A well-thought-out signage program would enhance the
customer’s experience. The first priority would be a movable sign inside the consular waiting
area to direct clients to the intake windows, which are in the American citizens services unit.

        Informal Recommendation 12: Embassy Abuja should review consular signage,
        beginning with directional signs inside the consular waiting room.


                                       15
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       With the 20 percent increase in visa workload, the number of interview windows is
inadequate. Because the windows are larger than required, there is space to create additional
windows along the present hardline. The embassy has begun a process to add windows.

Nonimmigrant Visas

        In the 12 months before the OIG inspection, Abuja adjudicated 43,000 visas with a
refusal rate of about 45 percent. During the inspection, Abuja increased nonimmigrant visa
appointments by about 25 percent and implemented a plan to increase appointments by 100
percent over the baseline in the following 3 weeks. This move reduced the visa appointment
backlog in Abuja by more than 100 days in a 3-week period.

American Citizens Services

       The American citizens services unit in Abuja provides excellent services in a difficult
environment. During the inspection, the unit held a warden’s lunch at the Ambassador’s
residence to enhance relations with the wardens, who can be the eyes and ears of the embassy
when security concerns limit travel.

Lagos Consular Operations

        Consular operations in Lagos dwarf those in the capital. With 15 U.S. direct-hire
positions, Lagos has three times the adjudicating staff of Abuja. In the year prior to the OIG
inspection, Lagos adjudicated more than 84,000 nonimmigrant visas with a refusal rate of 39
percent. In the same period, Abuja processed 43,000. Lagos also processes immigrant visas;
Abuja does not. Despite the hardships of life in Lagos, morale in the consular section is very
good. Much of the credit goes to the talented mid-level manager, who has recently been elevated
to deputy section chief.

Facilities

       The consulate general is an old and deteriorating building, but the consular section is
newly renovated. Work areas are sufficient. Intake procedures outside the building, however, are
poor. Applicants are subjected to confusing directions, inadequate signage, multiple security
screenings, and an illogical flow. The situation works contrary to the consulate general’s public
diplomacy efforts.

       Informal Recommendation 13: Embassy Abuja should improve the visa intake
       procedures at Consulate General Lagos.

American Citizens Services

        The American citizens services unit in Lagos also provides services in a difficult
environment. During the inspection team’s visit, the unit held a town hall meeting to build
relations with the American community. The main concern of the Americans was the
nonimmigrant visa appointment backlog, but unfortunately consular staffers at the meeting were
not prepared to interact with the guests on this important matter.

                                       16
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Immigrant Visas

         Although the Lagos nonimmigrant visa demand is growing at a double-digit rate,
immigrant visa workload has declined slightly since FY 2008. The workload is complicated by
fraud for two reasons: immigrant visas cannot simply be refused under Section 214(b) of the
Immigration and Nationality Act, and immigrant visas are often based on relationships
demonstrated by civil documents, which are unreliable in Nigeria. As a result, the immigrant visa
unit relies on DNA testing to confirm biological relationships. The procedure is secure and
closely managed by an American officer. Approximately 40 percent of the DNA testing caseload
comes from the Department of Homeland Security, U. S. Citizenship and Immigration Service.
The proportion of remaining Mission Nigeria-origin DNA cases that are confirmed through the
testing is over 80 percent. Because DNA testing consumes large numbers of resources, reducing
the number of confirmations might be in the interests of the mission.

       Informal Recommendation 14: Embassy Abuja should study DNA testing results to see
       whether there are other ways to reliably confirm biological relationships.




                                       17
                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency                  U.S.      U.S.    Foreign    Total   Total Funding
                                  Direct-   Local-   National   Staff     FY 2012
                                   Hire      Hire     Staff
                                   Staff    Staff
Department of State
Diplomatic and Consular               74         8        14       96       $7,289,490
Programs
Africa Contingency Operations          0         0         0        0          $88,487
Training and Assistance
ICASS                                 17        23       398      438      $26,991,000
Public Diplomacy                       6         1        33       40       $3,815,900
Diplomatic Security                    7         1        36       44       $6,216,778
Marine Security                       16         0         8       24         $502,119
Representation                         0         0         0        0          $99,900
MRV                                   19         4        10       33       $1,235,660
DV                                     0         0         4        4         $147,004
CA PROGRAM                             0         0        30       30         $641,045
PAS - EAC                              0         0         0        0          $45,181
OBO Program                            0         0         0        0       $7,878,560
OBO Project                            6         0         3        9       $3,411,959
Gift Fund                              0         0         0        0          $43,983
International Narcotics and Law        2         0         2        4         $106,090
Enforcement Affairs
State PEPFAR                           0         1         3        4       $1,223,461
Department of Agriculture
Foreign Agriculture Service            2         0         4        6       $1,060,111
Department of Defense
Defense Attaché Office                 8         0         2       10         $715,440
DOD-HIV (Walter Reed)                  3         0        12       15       $1,940,383
Office of Defense Cooperation          3         0         2        5         $490,031
Department of Justice
Drug Enforcement Administration        4         0         2        6         $128,408
Federal Bureau of Investigation        3         0         4        7         $128,408
Foreign Commercial Service             2         0        11       13         $915,299
USAID
Operating Expenses                    16         0        47       63       $9,991,638
Development Assistance                19         0        74       93     $183,791,000
CDC                                   11         1        49       61       $4,712,765
                                   18
                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

 Treasury                                   1          0          0        1                  $0
 Army AFRICOM, SOFLE,                      12          0          2       14            $465,000
 Navy NAVEUR
 Totals                                   231        39         750     1020        $264,075,100

Management Overview

Coordination

        Management in Lagos and Abuja communicate regularly on operational issues but do not
coordinate effectively when formulating policy and procedures. Management policies and
notices are not numbered or titled consistently, which makes them difficult to locate. Policies
differ between the embassy and the consulate general, resulting in inequitable treatment of
employees.

Recommendation 8: Embassy Abuja should draft, coordinate, and publish management policies
applicable to the entire mission in an easily retrievable format on the embassy Web site. (Action:
Embassy Abuja)

        Many employees expressed frustration with unclear management and security directives
and duplicative paperwork requirements. More effective coordination among management
service providers, between the regional security office and management sections, and between
the embassy and the consulate general would enhance productivity and customer service.

       Informal Recommendation 15: Embassy Abuja should require that all communications
       to the embassy community from management subsections are cleared by other affected
       subsections and approved by the management officer or counselor.

       Informal Recommendation 16: Embassy Abuja should require that all management
       communications to the embassy community are cleared by the regional security officer,
       the embassy management counselor, and the consulate management officer, and that all
       regional security office communications to the community are cleared by the
       management officer and management counselor.

       Informal Recommendation 17: Embassy Abuja should require the management
       counselors and regional security officers in Abuja and Lagos to meet weekly.

       Informal Recommendation 18: Embassy Abuja should establish weekly digital
       videoconference or teleconference meetings between the management counselor in Abuja
       and the management officer in Lagos.

Communication

        Despite several big and disruptive projects, such as leasing of housing compounds of up
to 66 residences, there was very little communication to the embassy community on the progress
of these projects and how it would affect their lives. As reflected in questionnaires and
interviews, poor dissemination of information has a disruptive effect (b) (5)
                                       19
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Abuja should implement a consistent means of communication
with the mission community on administrative support issues. (Action: Embassy Abuja)

Emergency Preparedness

        Emergency preparations are not sufficiently publicized. The duty officer handbook and
roster are not readily available. (b) (5)




Recommendation 10: Embassy Abuja should update the duty officer handbook and post it on
the embassy Web site. (Action: Embassy Abuja)

Recommendation 11: Embassy Abuja should implement periodic orientation briefings for duty
officers on their responsibilities and required actions in case of a crisis. (Action: Embassy Abuja)
       (b) (5)




       Informal Recommendation 19: Embassy Abuja should facilitate the receipt of cell
       phones for all eligible family members.

Travel and Visitors Unit

        Heavy workload brought on by the steady flow of official visitors and senior delegations
was cited by the Ambassador and many employees as a serious issue for the embassy that draws
heavily on the time of embassy officers, particularly in the political and economic sections. The
current system makes the assigned control officer responsible for coordinating the visitor’s
program as well as all logistic arrangements. During FY 2012, Mission Nigeria supported the
travel of 1,467 official visitors, including 69 delegations. A more systematic approach to
logistical preparations would reduce the workload associated with official visitors.

Recommendation 12: Embassy Abuja should establish a travel and visitors unit. (Action:
Embassy Abuja)

Real Property

Office Facilities

        In Abuja, construction of an annex project continues on schedule at the government-
owned embassy compound, with an expected completion in January 2015. The project includes
offices, Marine security guard quarters, maintenance workshops, and a parking structure. The
annex space will consolidate all agencies onto one compound. The mission expects final
consolidation of the USAID and Department management platforms when USAID moves from
commercial space off compound to the new annex. The annex will double the square footage of
                                        20
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

government-owned facilities in Abuja. The OIG team supports Abuja’s FY 2014 Mission
Resource Request for a direct-hire deputy facility manager position to meet the maintenance
requirements of the expanded facilities.

        Construction of a new consulate compound in Lagos is scheduled to begin in 2017.
Traffic congestion had led the consulate general to use its dock and boats to transport personnel.
Because congestion is not likely to improve, water access for boat transportation is a high
priority for the new site. Besides saving time, boat transportation decreases the security risk to
personnel stuck in traffic and provides an alternate route of egress. The OIG team supports the
consulate general’s assessment that water access should be an important consideration in
selecting the new consulate compound site.

        In Lagos, construction of a consular and public affairs annex and renovation of the
consulate office building, originally built in 1979, was completed in March 2012. Since
completion, the chiller and air handling units have malfunctioned. The problem remains
unresolved despite numerous repairs. After the building acceptance phase, if the construction
contractor refuses to honor warranty obligations, 15 FAH-1 H-121.3 requires OBO to pursue
further enforcement actions. High temperatures create uncomfortable offices and public spaces
and put computer servers and other equipment at risk.

Recommendation 13: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should settle the unresolved warranty claims for the chiller and air handling
units at Consulate General Lagos. (Action: OBO, in coordination with Embassy Abuja)

        The Lagos renovation project did not include new generators. Because of weak
infrastructure, the consulate general often depends on generator power 24 hours a day. The
current generators exceed the number of hours recommended for replacement and experience
chronic maintenance problems. The facilities section wastes valuable time and resources to keep
the generators running. As specified in 15 FAM 636.1-1, OBO is responsible for supporting and
funding mission-critical generators for all Department facilities abroad. Without immediate
replacement, generator failure may interrupt consulate operations.

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should fund replacement generators for the consulate compound. (Action: OBO,
in coordination with Embassy Abuja)

Warehouses

        In March 2013, the embassy plans to move from its current leased warehouse to a new
build-to-lease warehouse. The Lagos logistics center, which originally serviced many West
African posts, occupies a dilapidated, underutilized government-owned compound located 1 to 3
hours away from the consulate general, depending on traffic. The isolated location of the
logistics center hampers U.S. direct-hire oversight of property management operations. Planned
construction of a new consulate compound in Lagos provides an opportunity to relocate the
warehouse operations.

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should plan to replace the current logistics center with warehouse facilities
                                       21
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

colocated with or near the new consulate compound project in Lagos. (Action: OBO, in
coordination with Embassy Abuja)

Staff Residences

         Housing ranks as the most important morale factor for the mission. Because of security
restrictions and limited recreational opportunities, employees and family members spend much
of their free time at home. For security, efficiency, cost savings, and enhanced quality of life,
both Embassy Abuja and Consulate General Lagos seek to consolidate housing on fewer
compounds. Abuja is working with a developer on a 66-unit residential mega-compound, which
includes recreational facilities and a new warehouse. (b)(5)(b)(6)
                          the build-with-option-to-lease project replaces almost half the embassy
housing pool. The embassy expects to complete the compound in 2013. Many employees and
family members express anxiety about the lack of information available about the project and the
possibility of moving midtour to the new compound.

       Informal Recommendation 20: Embassy Abuja should develop a comprehensive
       transition plan for moving to the new residential mega-compound and communicate the
       information widely through the embassy community.

Chief of Mission Residence

        After drawn-out negotiations, the embassy recently renewed the agreement on the short-
term leased chief of mission residence. The lease required a substantial rent increase from
$160,000 to $250,000 per year and a 3-year advance payment. The landlord refuses to make
repairs required by terms of the lease and has indicated he will not renew the lease. The embassy
suggests that a build-to-lease project for a new residence could be an appropriate solution given
that suitable leased properties are not readily available in Abuja.

Recommendation 16: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should evaluate the feasibility of a build-to-lease project to replace the chief of
mission residence. (Action: OBO, in coordination with Embassy Abuja)

General Services Office

        Dangerous traffic conditions, poor infrastructure, high-fraud risks, and the unstable
security situation in Nigeria present a challenging environment for managing general services
operations, complicating staff’s ability to provide services in a timely manner.

Procurement

       Procurement services received low scores on OIG surveys, with customers complaining
about delays, poor communication, incorrect items ordered, and lack of competitive pricing. The
mission is not using the government purchase card program to the extent required by the Federal
Acquisition Regulation (FAR) 13.201(b), even for off-shore procurements. Expansion of the
purchase card program for overseas purchases by other sections, such as public diplomacy and
the medical unit, could streamline the process for special purchases. Adhering to prescribed

                                       22
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

purchase card procedures and restricting use to off-shore procurements will lessen the
opportunity for fraud.

Recommendation 17: Embassy Abuja should expand use of the government purchase card
program for simplified acquisition purchases. (Action: Embassy Abuja)

        Since 2009, the mission has improperly procured more than $20,000 of Armed Forces
Network satellite television equipment for employee residences in Abuja and Lagos. Department
policy states that residential television services are a personal expense for all employees except
the principal officer, DCM, and public diplomacy officers, who may be authorized satellite
television equipment for job-related functions under 5 FAM 571 a. and 15 FAM 723 b.
Employee recreation associations or private vendors often manage missionwide satellite
television programs for residences.

Recommendation 18: Embassy Abuja should cease the use of appropriated funds to procure or
support personal satellite television services. (Action: Embassy Abuja)

       Mission contracts contain the required FAR 52.222-50 clause, Combating Trafficking in
Persons. However, because of insufficient training, contracting officers and contracting officer’s
representatives lack awareness of their responsibilities outlined in the Office of the Procurement
Executive Procurement Information Bulletin No. 2011-09. Without a structured trafficking-in-
persons monitoring program, mission contractors may be engaging in illegal trafficking-in-
persons activities, contrary to the Department’s zero tolerance policy for recipients of Federal
funds.

Recommendation 19: Embassy Abuja, in coordination with the Bureau of Administration,
should implement a trafficking-in-persons monitoring program. (Action: Embassy Abuja, in
coordination with A)

Recommendation 20: Embassy Abuja, in coordination with the Bureau of Administration and
the Foreign Service Institute, should schedule training for contracting officers and contracting
officer’s representatives on how to monitor contractors compliance with the FAR 52.222.50
clause.(Action: Embassy Abuja, in coordination with A and FSI)

         An OIG review of procurement documents in Lagos found three instances of
unauthorized commitments, each exceeding $1,000. The unauthorized commitments require
ratification as outlined in Department of State Acquisition Regulation 601.602-3 and in 14 FAH-
2 H-132. A consulate employee incorrectly assigned work to a local moving company without a
valid procurement document in place. When the vendor completed the jobs and submitted
invoices, the unauthorized commitments were discovered. Unauthorized commitments may
result in personal liability for the person making the commitment, and vendors who act on
unauthorized requests may not be paid unless the case is ratified. The Office of the Procurement
Executive must also approve unauthorized commitments exceeding $1,000.

Recommendation 21: Embassy Abuja, in coordination with the Bureau of Administration,
should ratify all unauthorized commitments. (Action: Embassy Abuja, in coordination with the
A)

                                       23
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Warehouse and Supply Chain Management

        In Lagos, the boats and motors used for official transportation are not tracked as
nonexpendable, accountable personal property or included in capitalized property reports as
required by 14 FAM 418.3-1. Property personnel expressed uncertainty about the requirements.
If the boats and motors are not inventoried and reported in the capitalized property reports,
control over the property may be weak and the Department’s financial statements will be
inaccurate.

Recommendation 22: Embassy Abuja should enter complete property records for boats and
motors used in Lagos into the Integrated Logistics Management System as capitalized property.
(Action: Embassy Abuja)

        In Abuja, the International Cooperative Administrative Support Services (ICASS)
warehouse LE staff continues to increase with the size of the mission and consolidation of
management services. Most recently, ICASS assumed responsibility for the warehouse
operations and some related employees of USAID and CDC. The organizational structure at the
warehouse has not adjusted with the growth. Currently, more than 20 employees report directly
to the LE staff warehouse supervisor. According to 3 FAH-2 H-441.3, new or revised position
descriptions are needed whenever there is a material change in the duties, responsibilities, or
organization of existing positions. Without proper chains of command, employees do not receive
adequate supervision.

Recommendation 23: Embassy Abuja should review and revise position descriptions for locally
employed staff members assigned to the warehouse. (Action: Embassy Abuja)

Fuel Controls

       Mission Nigeria spent approximately $5.18 million in FY 2011 and $4.29 million in FY
2012 on gasoline and diesel fuel—one of its largest expenses. Unreliable electric service forces
the mission to rely almost full time on generators for power at office facilities and residences.
Extra controls have been implemented over the past 3 years after an internal inspection
conducted by the embassy in 2009.

        The mission is not maintaining accurate records of monthly fuel consumption for each
vehicle in the fleet by using form DS-1775 as required by 14 FAH-1 H-814.2. These records
establish the average monthly kilometer per liter for each vehicle to help detect mechanical
problems or theft of fuel. The general services officer should review the records monthly,
investigate any problems, and sign and date the form DS-1775. Without accurate records and
oversight of monthly fuel consumption, theft of fuel from vehicles can go undetected.

Recommendation 24: Embassy Abuja should prepare the DS-1775 monthly fuel consumption
report, including calculations for average kilometers per liter mileage rates, for each vehicle and
investigate any irregularities immediately. (Action: Embassy Abuja)

        The underground diesel storage tanks on the embassy compound are cracked and require
repair or replacement according to Department and Federal standards in the Overseas Buildings
Operations Safety, Health, and Environmental Resource Guide referenced in 15 FAM 957.1.
                                       24
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 25: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should repair or replace the diesel storage tanks on the embassy compound as
soon as possible to prevent environmental damage from leaks. (Action: OBO, in coordination
with Embassy Abuja)

Customs and Shipping

        Many employees complain about not receiving unaccompanied baggage, household
effects, consumables, and vehicles in a reasonable time after arrival in Abuja or Lagos. In
addition, they do not receive adequate information to allow them to plan accordingly. As a result,
employees waste time trying to obtain information about their shipments. The customs
bureaucracy in Nigeria often delays clearances, and sea shipments are often held in the congested
port of Lagos. The mission’s Welcome to Post cables do not provide detailed information to
manage expectations about how long shipments may take to be delivered. The guidance in 3
FAH-1 H-3763.3-2 allows posts to include location-specific information in the Welcome to Post
cables. The ICASS uniform service standards for shipping and customs require weekly updates
to the customer until the shipment is delivered.

Recommendation 26: Embassy Abuja should update its TMTHREE-Welcome to Post cables
with realistic time estimates for receipt of employee shipments. (Action: Embassy Abuja)

Recommendation 27: Embassy Abuja should implement a system to provide customers with
weekly status updates on shipments. (Action: Embassy Abuja)

        The shipping section in Abuja terminated three out of four LE staff members (b) (6)   in
2012. Currently, only one vendor handles export packing for outgoing embassy shipments. The
embassy recently reweighed some shipments prepared by the contractor and found discrepancies
in the weight certificates provided, which resulted in overcharges. The embassy has not prepared
a competitive solicitation to choose additional vendors for packing, crating, and shipping
services as outlined in 14 FAM 614.5-3 a. With only one contractor, the embassy risks continued
problems with overcharges.

Recommendation 28: Embassy Abuja should prepare a competitive solicitation for local
packing, crating, and shipping services. (Action: Embassy Abuja)

Motor Pool

         Mission Nigeria published its latest motor vehicle policy in February 2012 in accordance
with 14 FAM 432.5, but it does not contain adequate information. Many employees express
confusion over inconsistent charges for other authorized use, mobile police escort services, and
home-to-office shuttles. Some newly arrived employees receive free home-to-office
transportation until their vehicles arrive, whereas other newcomers are required to pay for the
service. Some employees question paying for motor pool transportation and a mobile police
escort for trips to the airport for personal travel as mandated by the regional security office.
Nigeria was designated for a danger pay allowance in March 2012, and the motor vehicle policy
has not been reviewed for possible exceptions for danger pay posts in 14 FAM 433.4 a.(2).
Without a clear up-to-date motor vehicle policy, mission personnel may not be treated uniformly,
fairly, and equitably.
                                       25
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 29: Embassy Abuja should update and republish a comprehensive
countrywide motor vehicle policy. (Action: Embassy Abuja)

       An OIG team review of time and attendance records found many drivers working more
than 10 hours per day in violation of 14 FAM 432.4 c.(3). Duty hours for drivers should not
exceed 10 hours per day as prescribed by the Department’s Motor Vehicle Safety Management
Program. This violation may indicate poor scheduling or an insufficient number of drivers.
Driver fatigue from excessive duty hours could result in injuries or fatalities from motor vehicle
accidents.

Recommendation 30: Embassy Abuja should limit work hours for drivers to a maximum of 10
hours per day. (Action: Embassy Abuja)

Travel
         (b) (5)
                                                       Embassy Abuja pays for tickets via electronic
funds transfers to airlines and travel   agents. (b) (5)


Recommendation 31: (b) (5)


Housing

       Because of a lack of strategic planning and unanticipated delays in the completion of new
housing, many employees occupy temporary quarters for up to several months after arrival
before moving into their permanent quarters. Some employees experience multiple moves.
ICASS uniform service standards state that housing will be ready for occupancy upon the arrival
of a new employee provided at least 120 days advance notice is received. In addition to the
inconvenience to the employee of living in a partially furnished apartment or hotel without
personal effects, the current process is costly and wasteful.

Recommendation 32: Embassy Abuja should improve the efficiency of housing assignments by
meeting the International Cooperative Administrative Support Services uniform service standard
for make ready and occupancy of housing by new arrivals during the summer and winter transfer
cycles. (Action: Embassy Abuja)

        Some employees and family members complain that their residences were dirty and in
need of repair when they arrived, because of inadequate make-ready preparation by the landlord,
contractors, or the facilities management staff. In addition, some new housing lacked required
safety equipment, such as fire extinguishers, upon occupancy. According to ICASS uniform
service standards, customers should move into housing that is clean, safe, and in good repair.
Besides having a negative impact on morale, poor make-ready work exposes residents to risk of
injury.




                                        26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 33: Embassy Abuja should implement a rigorous program to oversee make-
ready work so that embassy housing is clean, safe, and in good repair upon occupancy. (Action:
Embassy Abuja)

        USAID joined the embassy’s furniture and housing pools in October 2012. The mission
failed to update the housing handbook for use by employees and family members to reflect new
information for USAID customers. In addition, the guidelines omit post-specific housing
information for customers at Consulate General Lagos. Department guidance in 15 FAM 212.5
and 15 FAM Exhibit 212.5 requires posts to keep current housing guidelines. Without up-to-date
information, employees and family members experience confusion about policies and procedures
for housing assignments, furniture and furnishings, and maintenance.

Recommendation 34: Embassy Abuja should update the mission’s housing handbook to include
information for all customers. (Action: Embassy Abuja)

       In Lagos, the housing board has not met for more than 3 months. According to 15 FAM
212.2-2(B) f., a board should meet at least monthly. The board chairperson resigned in August
without replacement as required in 15 FAM 212.2-2(B) e. Because of summer transfers, regular
meetings ceased and the board failed to nominate replacements for the departing board members
and chairperson. Without an active housing board to promote fair and equitable treatment,
employee and family member morale suffers.

Recommendation 35: Embassy Abuja should facilitate at least monthly meetings of the
interagency housing board in Lagos. (Action: Embassy Abuja)

Recommendation 36: Embassy Abuja should require the interagency housing board in Lagos to
name a new chairperson. (Action: Embassy Abuja)

        An OIG review of residential lease files in Lagos found incomplete records. The files
lack post occupational safety and health officer certifications, which are required by 15 FAM
352(4). No system exists for the housing office to verify that all records are included. Without
written records to document that properties are free of critical safety or health hazards before
occupancy, employees and family members face risk of injury. In addition, the Department
requires complete documentation when a property is the subject of litigation.

Recommendation 37: Embassy Abuja should include all required documentation in the lease
files in Lagos. (Action: Embassy Abuja)

Facilities Management and Safety, Health, and Environmental Management

Facilities Management

        Residential maintenance received low scores on the 2012 ICASS customer satisfaction
survey (3.62 out of 5 in Abuja and 3.29 in Lagos) and on OIG surveys. Many occupants of
leased and government-owned housing experience improperly completed work orders,
unexplained delays in service, and poor communication about scheduling of maintenance visits.
Poor infrastructure, uncooperative landlords, unresponsive contractors, and sporadic oversight
contribute to the problem. As required by the uniform service standards, ICASS service
                                       27
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

providers should work with landlords, contractors, or in-house staff to ensure necessary repairs
are made properly and on time, with routine repairs completed in 7 business days and emergency
repairs completed in 4 hours. Lack of timely response hurts morale and exposes residents to
unsafe conditions.

Recommendation 38: Embassy Abuja should implement a comprehensive routine maintenance
and repair plan with adequate landlord liaison and contractor oversight so that residential repairs
are completed properly and on time. (Action: Embassy Abuja)

Safety, Health, and Environmental Management

        The facility managers at the embassy and consulate general act as post occupational
safety and health officers. The safety and health standing committee in Lagos last met in 2009.
Regulations in 15 FAM 933 require at least semiannual meetings. Without regular oversight of
the safety program, employees risk injury.

Recommendation 39: Embassy Abuja should establish a formal safety and health standing
committee with regular meetings in Lagos. (Action: Embassy Abuja)

        Regulations in 15 FAM 312.6 and 15 FAM 252.5 require the post occupational safety and
health officer to formally certify that residential properties meet Department safety, health, and
environmental requirements prior to occupancy. In Lagos, because of poor recordkeeping, no
documentation exists to confirm the final inspection and signed certification for residential units.
Without proper certification that all hazards have been effectively controlled or eliminated before
occupancy, dangerous conditions could cause serious injuries or fatalities.

Recommendation 40: Embassy Abuja should implement a formal certification process to
document that all residential properties in Lagos meet Department safety, health, and
environmental requirements before occupancy. (Action: Embassy Abuja)

Human Resources

U.S. Direct-Hire Recruitment

        Recruitment of officers with appropriate skills and experience is the top human resources
priority of both the embassy and the Department. But recruitment materials are out of date, and
the process of monitoring and following up with bidders is haphazard. The Department maintains
a centralized Web site of those who bid on positions, then sends the list of names for each
position to the embassy for consideration. References for some bidders are missing from the list,
which leaves the embassy scrambling to gather enough information to meet the short turnaround
time to the Department.

Recommendation 41: Embassy Abuja, in coordination with the Bureau of African Affairs,
should develop a comprehensive recruitment strategy for U.S. direct-hire officers. (Action:
Embassy Abuja, in coordination with AF)

Recommendation 42: Embassy Abuja should update recruitment materials at the Overseas
Briefing Center. (Action: Embassy Abuja)
                                       28
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Use of Resources

        Embassy Abuja has responsibility for Embassy Malabo in the areas of human resources
and financial management. Since October 2010, the financial management office in Abuja has
spent 119 working days in Malabo, and the human resources office has spent 59 days. Of that
time, the U.S. direct-hire financial management officer spent 31 days in Malabo, and the U.S.
direct-hire human resources officer spent 59 days.

          Informal Recommendation 21: Embassy Abuja should use more locally employed staff
          and fewer U.S. direct-hire human resources staff to support Embassy Malabo.

        Consulate General Lagos has over two-thirds as many employees as Embassy Abuja, but
only 2 of the 12 LE human resources staff members are based in Lagos. The consulate general is
the size of a medium-sized embassy with a disproportionate number of entry-level officers.
When the embassy moved from Lagos to Abuja in 2005, the human resources section was the
only section to be centralized in Embassy Abuja. Coordination and customer service have
suffered as a result.

Recommendation 43: Embassy Abuja, in coordination with the Bureau of Human Resources,
should move the deputy human resources officer (position number 51-120003) to Consulate
General Lagos. (Action: Embassy Abuja, in coordination with DGHR)

Locally Employed Staff Committee

        Lack of effective communication with the LE staff committee resulted in much time and
energy spent on investigating individual cases of medical insurance fraud rather than addressing
the root cause of the issue.

        It is standard operating practice in Nigeria for hospitals to demand payment up front and
to refuse to treat patients with inadequate funds. One LE staff member died after the LE staff
committee was unable to deliver funds on short notice for his emergency condition. The
committee raised the funds in a matter of hours while their colleague’s family took him from one
hospital to another seeking treatment. The funds reached him at the third hospital, but by that
time the doctor said it was too late, and he died very shortly thereafter.

      Locally employed staff had been lobbying for years to change the method of medical
payments, which required staff to pay for medical services and then request reimbursement. (b)
(b) (5)                                                                                     (5)

                                            A dozen LE staff members were fired over the past 2
years for medical insurance fraud.

        The Department authorized Embassy Abuja to issue a request for proposal for a new
health insurance plan in April of 2009. The new plan, unsatisfactory to LE staff and vulnerable to
the same weaknesses as the old plan, took effect in September 2012. The delay in
implementation of the plan and lack of communication during the formation of the plan are
sources of frustration and bitterness for LE staff.


                                       29
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The LE staff committee’s position is that the new plan is better than the reimbursement
method; it provides for more coverage and even with the new premium payment it is better than
the old plan. But the co-pay required up front makes the patient vulnerable to being refused
treatment. The co-pay is defined as a percentage of the treatment even though the payment is
required prior to diagnosis and treatment. The new plan shares a serious shortcoming with the
old plan: patients do not know how much cash will be required before going to the hospital, (b)
(b) (5)                                                                                        (5)


Recommendation 44: Embassy Abuja should designate one U.S. direct-hire employee to be its
expert on local medical insurance, who will be the interlocutor with the locally employed staff
committee, the Department of State, and the Ambassador. (Action: Embassy Abuja)

Recommendation 45: The Bureau of Human Resources, in coordination with Embassy Abuja,
should eliminate the requirement for locally employed staff to make co-payments up front under
the medical insurance plan. (Action: DGHR, in coordination with Embassy Abuja)

Recommendation 46: Embassy Abuja, in coordination with the Bureau of Human Resources,
should examine all components of the new medical insurance plan to ensure it is in the best
interest of the U.S. Government. (Action: Embassy Abuja, in coordination with DGHR)

       The LE staff committee is concerned about several other issues: salary, benefits,
allowances, special immigrant visa requirements, retirement plan, lack of a robust grievance
process, lack of access to basic employment documents, the process by which the local
compensation plan is revised, and lack of effective communication with management.

        Department guidance, per 06 State 149813, encourages embassies to communicate as
freely as practicable with LE staff to anticipate problems and formulate plans to resolve them
effectively. Lack of communication and attention to LE staff issues diminishes mission
cohesiveness.

Recommendation 47: Embassy Abuja should meet monthly with the locally employed staff
committee for input on work life and employment issues. (Action: Embassy Abuja)

         Many LE staff members expressed confusion about the local compensation plan, in
particular how it was established and its benefits. As outlined in 3 FAH-2 H-215 C., selected LE
staff members from various mission elements may assist in the salary survey process. Where LE
staff participation is minimal because of local circumstances, the mission could substantially
increase its briefings of LE staff on survey procedures and findings. When a mission does not
provide information to its LE staff, and does not seek information from them on local practices,
it risks deficiencies in its local compensation plan.

Recommendation 48: Embassy Abuja should brief the locally employed staff committee on
how salary and benefits are determined in the local compensation plan. (Action: Embassy Abuja)

        Neither the current local compensation plan nor the Foreign Service National Handbook
is readily available. Department guidance requires the embassy to publish these documents for
all locally employed staff and to include salary schedules at the embassy’s discretion. Even
drafts should be clearly explained and readily available to every embassy employee.
                                       30
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 49: Embassy Abuja should post current versions of the local compensation
plan and the Foreign Service National Handbook on its Web site. (Action: Embassy Abuja)

       Informal Recommendation 22: Embassy Abuja should post current locally employed
       staff salary schedules on its Web site.

      The high inflation rate in Nigeria may make the embassy eligible for a waiver to the
worldwide LE staff salary freeze.

Recommendation 50: Embassy Abuja, in coordination with the Bureau of Human Resources,
should determine whether the embassy is eligible for a waiver to the locally employed staff
salary freeze. (Action: Embassy Abuja, in coordination with DGHR)

Locally Employed Staff Concerns

      Inspectors observed that the LE staff is not consulted on issues of concern and there is an
atmosphere of fear among LE staff members following the recent termination for cause of a large
number of local employees. The LE staff members feel that they risk their jobs if they ask too
many questions or push too hard on issues having an impact on their employment.

        Four years ago the local compensation plan was revised to change the calculation of the
gratuity at the time of separation from 1 month’s pay for every year of service to 3 weeks’ pay
for every year of service. Prevailing practice may reflect the older calculation.

       Informal Recommendation 23: Embassy Abuja should determine whether separation
       payments are in accordance with local law and practice.

        LE staff members are at risk because of their service to the U.S. Government. The LE
staff asked if it is eligible for danger pay, particularly as danger pay was recently instituted for
U.S. direct-hire employees.

       Informal Recommendation 24: Embassy Abuja should determine whether the locally
       employed staff is eligible for special conditions of work compensation.

        The Ambassador recently presented the Department with information on the rising cost of
living in Nigeria to make a case for raising some of the allowances in the local compensation
plan. There is no education allowance in the plan, but several LE staff members claim that the
prevailing practice is to provide such an allowance.

       Informal Recommendation 25: Embassy Abuja should conduct surveys for housing,
       education, leave, meals, and transportation allowances.

        The LE staff perceives that prevailing practice may involve a different retirement
calculation than that stipulated in their current retirement plan.

       Informal Recommendation 26: Embassy Abuja should determine whether the locally
       employed staff retirement plan is in accordance with local law and practice.

                                        31
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       In the past, LE staff members with less than 20 years of service had obtained special
immigrant visas. Embassy policy has changed to require a minimum of 20 years of service.
There is confusion on the interpretation of the embassy policy.

       Informal Recommendation 27: Embassy Abuja should publish a clear and
       comprehensive special immigrant visa policy on its Web site.

        Inspectors observed that the grievance policy in place for the LE staff is unclear and there
is no provision for a grievance board.

       Informal Recommendation 28: Embassy Abuja should revise and republish its locally
       employed staff grievance procedure.

Eligible Family Member Employment

        Eligible family member (EFM) recruitment and hiring processes are not clear. The
embassy Web site contains the process map from the Bureau of Human Resources, but there is
no document that details the process and includes a timeline. The current EFM program is
marked by lack of a clear explanation of the mission’s policy and process for the creation,
recruitment, and hiring of EFM positions.

Recommendation 51: Embassy Abuja should publish a clear and comprehensive eligible family
member recruitment and hiring policy on its Web site that describes the hiring process and
timelines. (Action: Embassy Abuja)

       The long lead time for obtaining security clearances has prevented EFMs from working
for much of their time in Nigeria. EFMs are not informed in advance of the need for security
clearances, and the embassy does not effectively follow up on the bureaucratic process of
obtaining security clearances. As a result, the embassy has not maximized its use of EFM
resources.

Recommendation 52: Embassy Abuja should inform eligible family members who are
interested in employment of the need for security clearances during their preliminary outreach
efforts and should follow up with the Department of State once the security clearance paperwork
has been submitted. (Action: Embassy Abuja)

         Newly hired EFMs are sometimes not paid on time due to lack of coordination between
the consulate general and the embassy and between the embassy and the payroll center. The
result is frustrated employees and loss of productivity.

       Informal Recommendation 29: Embassy Abuja should implement timely payment
       procedures for eligible family member employees.

Locally Employed Staff Recruitment and Hiring

        Embassy Abuja receives between 300 and 2,000 applications per advertised LE staff
position. The human resources office prints all applications received and assesses them using the

                                       32
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

hard copies. This method requires extra storage space and staff time. The staff is pulled away
from substantive work to take time to print the applications.

       Informal Recommendation 30: Embassy Abuja should assess and file electronic copies
       of applications and supporting documentation and print the documents only when there is
       no other alternative.

Position Review

        Several positions at Embassy Abuja and Consulate General Lagos that perform the same
or very similar functions with similar scope and responsibilities are graded differently. (b) (5)




Recommendation 53: The Bureau of Human Resources should conduct a limited review of the
locally employed staff position grades at Embassy Abuja and Consulate General Lagos. (Action:
DGHR)

Awards

       The mission has an awards program, but there is widespread confusion about the process.
Awards committee members do not have complete information on which to base their decisions
and do not formally approve a final awards list.

       Informal Recommendation 31: Embassy Abuja should make available to members of
       the awards committee all nominations submitted and the awards history of at least 3 years
       for each nominee and require written clearance of each member of the awards committee
       on the final list of awards.

Lack of understanding of how awards are determined diminishes the positive impact of the
awards program.

       Informal Recommendation 32: Embassy Abuja should publish an awards policy cleared
       by the International Cooperative Administrative Support Services budget committee.

Overtime Compensation

        Employees who submit overtime are compensated in either salary or compensatory time,
but there is no clear instruction on who is eligible for overtime or the possibility of converting
compensatory time to salary payments. The result is inequitable treatment of employees.

Recommendation 54: Embassy Abuja should publish a comprehensive overtime policy,
including an explanation of compensatory time and conversion of compensatory time to salary
payments. (Action: Embassy Abuja)


                                       33
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Financial Management

         The financial management office gets high marks from clients and ICASS subscribers,
but it suffers from lack of sufficient coordination with Consulate General Lagos and lack of
attention to internal controls. Conflicting policies and procedures are confusing to employees.
Better communication between the financial management offices in Abuja and Lagos is needed.

       Informal Recommendation 33: Embassy Abuja should hold joint embassy and consulate
       financial management staff meetings by video or teleconference.

        The financial management office provides funding to ICASS service providers without
sharing the comprehensive budget. Budget decisions should be negotiated by all concerned
offices to maximize embassy resources and encourage advance planning.

       Informal Recommendation 34: Embassy Abuja should coordinate budget planning by
       providing funding information to all International Cooperative Administrative Support
       Services providers and establishing consensus on spending priorities.

International Cooperative Administrative Support Services

        The ICASS process functions well with an active budget committee. It could be improved
by tighter coordination between Embassy Abuja and Consulate General Lagos.

       The Broadcasting Board of Governors uses motor pool resources for its temporary duty
personnel but does not pay into ICASS. As mandated by ICASS operating guidance, no agency
should be exempt from paying proper ICASS costs. The result of an agency not subscribing to
ICASS but receiving ICASS services is other agencies inappropriately subsidizing the
nonsubscriber.

Recommendation 55: Embassy Abuja should require that the Broadcasting Board of Governors
become an International Cooperative Administrative Support Services subscriber. (Action:
Embassy Abuja)

       The embassy currently direct charges temporary duty personnel for administrative
support. An optional method of charging temporary duty personnel, which captures indirect
ICASS service costs, is described in 6 FAH-5 H-363.1-3. Direct charging may not capture all
administrative support costs.

Recommendation 56: Embassy Abuja should determine whether using the International
Cooperative Administrative Support Services temporary duty module or direct charging is more
advantageous to the U.S. Government. (Action: Embassy Abuja)

Voucher Processing

       Embassy Abuja’s average cost to process a voucher in house is $38.65 per strip code.
Regional financial support units charge $12 per strip code to process vouchers. Guidance from
the Global Financial Services office in Charleston is that outsourcing voucher processing is

                                      34
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

optional and should be determined locally. Not choosing the appropriate voucher processing
method is costly to the U.S. Government.

Recommendation 57: Embassy Abuja should determine whether outsourcing voucher
processing would result in cost savings. (Action: Embassy Abuja)

Information Management

        Embassy Abuja’s information program center and information systems center meet the
mission’s basic requirements. At the time of the inspection both were being managed by one
mid-level officer because of two staffing vacancies. Given the environment, including the need
for auxiliary generator power 24/7, security concerns, and lack of continuity caused by lengthy
staffing gaps, the OIG team commends the unit’s ability to maintain a strong level of
performance. With all positions filled, Embassy Abuja’s American and LE information
management (IM) staffing levels are adequate for present operations. However, upon completion
of a new office annex construction project, a considerable number of USAID, CDC, and other
employees will relocate to the embassy compound. As that project draws to a close, the
American IM staff would benefit from the addition of an information systems officer. Embassy
Abuja has been counseled to include this position in its Mission Resource Request submissions.

       The new IM officer is scheduled to arrive in November 2012. He should have oversight
of IM operations in Lagos delineated in his work requirement statement. As the senior IM officer
in country, he is the reviewing officer for the senior IM position in Lagos, currently the
information systems officer, to provide a professional assessment of the latter’s managerial and
technical abilities.

       Informal Recommendation 35: Embassy Abuja should designate the information
       management officer as the rating officer for the information systems officer at Consulate
       General Lagos.

       Informal Recommendation 36: Embassy Abuja should include oversight of the
       information operations at Consulate General Lagos in the information management
       officer’s work requirements statement.

        The IM section at Consulate General Lagos also meets the mission’s basic requirements
while facing similar environmental, power, security, and staffing concerns found in Abuja. The
consulate building itself, aside from a recently built consulate and public affairs wing, is an older
structure that has facilities and maintenance deficiencies, including a leak from the roof into the
post communications center foyer. The IM section consists of a mid-level information systems
officer, a recently tenured information program officer, and an entry-level officer information
management specialist expected to arrive in January 2013. American and LE staffing levels are
adequate but would be enhanced by leadership provided by the IM officer assigned to Embassy
Abuja. The Lagos IM staff would also benefit from an EFM position to assist in mail and pouch
operations, inventory requirements, escorting LE systems staff and radio/telephone technicians,
and other general IM related duties, thus reducing overtime the American IM staff now spends
performing these activities.


                                        35
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

               Informal Recommendation 37: Embassy Abuja should create an eligible family member
               position to augment the Consulate General Lagos information management staff.
               (b) (5)




     Recommendation 58: (b) (5)


            The OIG team noted an excessive amount of paper files in the Lagos information
     programs center, much of it dated or superseded. These files must be retired or destroyed in
     accordance with record management procedures found in 5 FAM 400 and 5 FAH 4 and as
     recommended in 12 Pretoria 650 (Regional Information Management Center operational
     review).

               Informal Recommendation 38: Embassy Abuja should direct Consulate General Lagos
               to reduce information program center paper files and holdings.
(b) (5)




     Recommendation 59: (b) (5)



               Informal Recommendation 39: (b) (5)


     Mail and Pouch Operations

            Mail screening procedures and facilities at Embassy Abuja comply with procedures
     outlined in 14 FAH-4, but mail screening procedures at Consulate General Lagos are inadequate.
     (b) (5)



                                                 The OIG team counseled IM staff to enforce mail
     screening procedures more rigorously. The OIG team also counseled the consulate general to
     cross-train with Embassy Abuja to learn from the embassy’s excellent mail screening
     procedures.


                                             36
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

                 (b) (5)




                 Informal Recommendation 40: (b) (5)



(b) (5)




                 Informal Recommendation 41: (b) (5)

    (b) (5)




                 Informal Recommendation 42: (b) (5)


                 Informal Recommendation 43: (b) (5)


          Radio Operations

                  The OIG team found a 1966 Nigerian Foreign Office diplomatic note in Lagos that
          approved the use of three VHF frequencies in Lagos, which was then the capital of Nigeria. The
          files do not contain any subsequent VHF frequency approvals. However, given the frequent and
          overt use of VHF radios by both Embassy Abuja and Consulate General Lagos, it must be
          assumed that the Nigerian Government does not disapprove of their use.
   (b) (5)


                                                37
                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED
   (b) (5)




                 Informal Recommendation 44: (b) (5)

(b) (5)




                 Informal Recommendation 45: (b) (5)

(b) (5)




                 Informal Recommendation 46: (b) (5)



          Consulate General Lagos Logistics Center (Warehouse)

                 The consulate general warehouse has a room filled with old, excess radio, telephone, and
          computer equipment. The consulate general needs to inventory the equipment, taking note of
          Nonexpendable Property Application or Worldwide Property Accountability System inventory
          numbers for reconciliation purposes, request disposition instructions, and dispose of it
          accordingly.

                 Informal Recommendation 47: Embassy Abuja should direct Consulate General Lagos
                 to dispose of excess radio, telephone, and computer equipment stored at the consulate
                 warehouse.


                                                38
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         There is a significant amount of new Global Information Technology Modernization
 refresh computer workstation and monitor equipment at the consulate warehouse that has been
 there for 2 or 3 months. A schedule for deploying the new equipment would be beneficial to the
 consulate general.

          Informal Recommendation 48: Embassy Abuja should direct Consulate General Lagos
          to implement a schedule to deploy new computer workstations and monitors currently
          stored at the consulate warehouse.
(b) (5)




          Informal Recommendation 49: (b) (5)




                                        39
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

Sponsor Program

        The sponsor program is not integrated into embassy operations. Some employees report
that they were not assigned a sponsor, and others report that the sponsor met them at the airport
but did not provide further assistance. There are no documents explaining the sponsorship
program or setting benchmarks for a sponsor’s performance.

Recommendation 60: Embassy Abuja should implement and publicize a comprehensive
sponsor program for new U.S. direct-hire employees and their families. (Action: Embassy
Abuja)

Embassy Orientation Program

        Because so many positions are filled by officers on their first tour, an orientation to the
embassy is particularly important. However, there is no template for an orientation program or a
clear planning calendar to ensure that such an orientation is conducted consistently.

Recommendation 61: Embassy Abuja should implement an annual calendar and planning
template for an embassy orientation program and conduct the orientation a minimum of once a
year. (Action: Embassy Abuja)

Emergency Preparedness Seminar

        The Family Liaison Office offers excellent materials to guide an emergency preparedness
seminar. Department guidance encourages such a seminar at least annually to prepare U.S.
direct-hire employees and their families for different types of emergencies. Without annual
seminars, families are left unprepared for emergencies.

Recommendation 62: Embassy Abuja should establish a template for an emergency
preparedness seminar and conduct the seminar at least once a year. (Action: Embassy Abuja)

Health Unit

        The embassy and consulate health units get high marks from patients and colleagues. The
regional medical officer is based in Lagos. Abuja is staffed with a Foreign Service health
practitioner. Because of the heavy patient load in Abuja, however, the U.S. direct-hire healthcare
provider is overworked. The use of available resources is uneven; the U.S. direct-hire supervisor
in Abuja would benefit from managing the staff more effectively and delegating more patient
care to the local nurses.

Recommendation 63: Embassy Abuja should implement a plan to empower local nurses to take
more responsibility. (Action: Embassy Abuja)


                                       40
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The health unit is well stocked with medications and emergency supplies, but those
stocks are stretched unnecessarily when employees do not bring enough medicine with them
from the United States for their personal needs. Employees are not well informed about shipping
times and mail limitations, which results in an unreasonable demand on health unit stocks of
medicine.

Recommendation 64: Embassy Abuja should include in the Welcome to Post cable specific
information on the challenges of obtaining medicines in Nigeria and advise employees to bring at
least 6 months of personal medications with them. (Action: Embassy Abuja)

Overseas Schools

       Most children of Mission Nigeria employees attend (b)(5)(b)(6)

                                                                                     Most
families are satisfied with the educational programs and school environments; however, the
schools have very limited capacities to assist students with special needs. Both schools work
with the regional security office and have committees to address security. The schools receive
funding from the Office of Overseas Schools and have received grants for security upgrades.
Mission children receive priority for enrollment.

Employee Association

        The employee associations in Abuja and Lagos get high marks from the Department for
management of their funds. The Lagos temporary duty quarters provide a substantial income
stream.

        Some housing compounds in both Abuja and Lagos have cable television infrastructure in
place, but many employees do not have that infrastructure at their residences. Internet service is
difficult to obtain. There are many different providers, many with unreliable service. Employees
spend hours trying to find a reliable service, and some have waited as long 4 months to obtain
home Internet service.

Recommendation 65: Embassy Abuja should use the employee association to facilitate Internet
and cable television service to U.S. direct-hire employees. (Action: Embassy Abuja)




                                       41
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


   Management Controls
   Chief of Mission Certification

           The annual certification of internal controls is thorough and addresses several important
   areas. Shipping fraud was discovered shortly before the certification was sent to Washington.
   Over the past 2 years, the embassy has terminated nine LE staff members for fraud, mainly
   involving medical claims. This year, three of four LE shipping staff members were terminated,
   and one was prosecuted for a scheme setting up shell companies, tampering with and forging
   invoices, and diverting U.S. Government funds to his own bank account. The total loss to the
   U.S. Government is unknown. The measure outlined in the chief of mission certification to
   prevent such a fraudulent scheme in the future is logical (b) (5)

                                                               The statement also failed to note the
   lack of a functioning safety and health standing committee and a formal residential safety
   certification process in Lagos.

   Separation of Duties

           Given its history of LE staff committing fraud, the embassy should be particularly
   vigilant against fraud. However, the structure of internal controls is not coordinated well within
   the mission and does not address the fundamental principle of separation of duties between
   ordering and billing offices.

          Until recently, the shipping section in Abuja received shipping invoices. After
   discovering a problem with a fraudulent invoice that ultimately cost the embassy more than
   $175,000 in unnecessary storage fees, three out of four shipping section LE staff members were
   terminated. However, violation of separation of duties continues.
(b) (5)




           Per 4 FAH-3 H-413.5 b. (1) and (3), purchasing goods and services should be separated
   from examining invoices and preparing vouchers. Violation of separation of duties increases the
   risk of error, waste, and wrongful acts.

   Recommendation 66: Embassy Abuja should designate the financial management office as the
   billing office for all embassy transactions. (Action: Embassy Abuja)

          Local vendors often submit invoices late with erroneous and sometimes inflated prices.
   Per 4 FAH-3 H-422.3, the billing office shall identify and solicit late invoices. Closely tracking
   and pursuing invoices diminishes the risk of erroneous payments.



                                          42
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

          Recommendation 67: Embassy Abuja should monitor and solicit tardy invoices. (Action:
          Embassy Abuja)
   (b) (5)




          Recommendation 68: (b) (5)



          U.S. Direct-Hire Oversight

                 Embassy Abuja and Consulate Lagos have different management controls in place
          because of a lack of coordination. Inconsistency weakens management controls.

          Recommendation 69: Embassy Abuja should conduct a comprehensive review of management
          controls and change procedures as necessary to tighten internal controls, using the chief of
          mission certification risk assessment questionnaires as a starting point. (Action: Embassy Abuja)
(b) (5)




          Recommendation 70: (b) (5)


          Blanket Purchase Agreements

                 Embassy Abuja uses many small vendors for cash purchases because of local practice
          and lack of large vendors willing to accept credit. Though blanket purchase agreements may still
          be paid in cash, establishing such agreements using prescribed methods of determining
          advantageous prices and using several competing vendors would enhance discipline in
          purchasing and increase oversight of local purchasing.

          Recommendation 71: Embassy Abuja should negotiate blanket purchase agreements with local
          vendors. (Action: Embassy Abuja)




                                                 43
                                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Subcashiers

        Embassy Abuja employs eight subcashiers and Consulate General Lagos employs five.
Some are subject to monthly unannounced cash counts and others to quarterly counts. The OIG
inspectors observed that documentation for all but three subcashiers was incomplete for FY
2012. In accordance with 4 FAH-3 H-397.1-2, unannounced verifications of a Class B cashier
must be conducted monthly, regardless of the cash amount. Per 4 FAH-3 H-394.3 a., the
regulations that apply to the Class B cashier’s use of the operating cash advance also apply to
subcashiers. Lack of oversight invites fraud.

Recommendation 72: Embassy Abuja should conduct monthly cash counts, require that
verification officers complete exhibit 12C of the cashier user guide, and include a copy with the
subcashier records. (Action: Embassy Abuja)

Locally Employed Staff Certifying Officer

        Abuja has one LE certifying officer and has not conducted the voucher reviews of her
certifications as mandated by 4 FAH-3 H-065.2-2. Lack of oversight could result in
undiscovered errors and fraud.

Recommendation 73: Embassy Abuja should bring oversight of the locally employed staff
certifying officer into compliance with Department of State regulations. (Action: Embassy
Abuja)

Property Disposal

        The unauthorized sale of the U.S. Government-produced Moveable American Space
module was discussed with a recommendation in the Public Diplomacy section of this report.
The unauthorized sale is in violation of 14 FAH-1 H-710 and reflects the need for a review of
current mission property disposal practices to bring them into compliance with regulations.

Recommendation 74: Embassy Abuja should bring its property disposal procedures into
compliance with Department of State regulations. (Action: Embassy Abuja)

Gifts

        Embassy Abuja does not have a standard operating procedure for disposition of gifts and
no designated gifts officer to maintain gift logs and to dispose of gifts in accordance with
Department regulations. Per 3 FAM 4122.1, the designated officer for receiving gifts is the
embassy management officer. Because gifts are used and disposed of in accordance with
Department regulations governing property management and disposal, management offices often
delegate this role to the general services office. The absence of a designated gifts officer and
clear standard operating procedure for gifts disposition places gift recipients at risk of ethics
violations.

Recommendation 75: Embassy Abuja should revise its delegation of authorities memorandum
to identify a gifts officer from the general services office. (Action: Embassy Abuja)

                                       44
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 76: Embassy Abuja should implement and publish a gifts policy. (Action:
Embassy Abuja)

Consular Management Controls

        A review of cash accountability paperwork and spot checks of physical inventory showed
that both posts were following required procedures. There are only two relatively small issues
relating to cash accounting that need attention. Consular cashiers in both Abuja and Lagos are
not managing their cash advances properly. In Abuja, there are no cash advances. The cashier
cannot make change and either gets it from the Class B cashier or asks the customer to wait until
a subsequent client uses exact change. In Lagos, the consular cashier and the backup share one
cash advance. Both of these situations are contrary to 7 FAH-1 H-771.2-1 (cash advance) and 7
FAH-1 H-771.1-8 (separate cash boxes for each cashier).

Recommendation 77: Embassy Abuja should provide consular cashiers with adequate cash
advances to perform their duties. (Action: Embassy Abuja)

        Because of a large number of temporary personnel in Nigeria, in the 12 months before the
OIG inspection, 25 different officers adjudicated nonimmigrant visas in Abuja and 28 officers
adjudicated visas in Lagos. Because many temporary assignments are only for a month or less,
consular managers were challenged to quickly incorporate new officers in the adjudication
process. Local orientation and training is essential for quality adjudications. To check the
adjudications, consular managers are required to review a percentage of adjudications of their
line officers. For officers in their first (or only) month, this requirement is especially important.
Abuja and Lagos have not conducted these reviews and, in both cases, the managers cited the
press of business and complexity of managing the high turnover in staff. Adjudication review is
essential to maintaining the integrity of the nonimmigrant visa adjudication process.

Recommendation 78: Embassy Abuja should perform required nonimmigrant adjudication
reviews. (Action: Embassy Abuja)

        Mission Nigeria takes in some $20 million in machine-readable visa fees each year
through a commercial bank. Reconciliation of these fees is an important activity, considering the
amount of fraud and other illegal currency transactions that occur in Nigeria. At present, both
Abuja and Lagos compile machine-readable visa fees, but the country consular coordinator does
not review the countrywide receipts, as required by 7 FAH-1 H-744.2. This review is important
because the place of payment does not automatically determine the post of application.

Recommendation 79: Embassy Abuja should instruct the country consular coordinator to
review weekly the machine-readable visa fee receipts for the entire country. (Action: Embassy
Abuja)

Lagos Consular Management Controls

       The cashier booths in the recently renovated consular section in Lagos do not have any
windows apart from the teller window for the client. To have managerial line-of-sight control
over the consular operations, there must be a window either in the wall of the cashier booth or in
the door.
                                        45
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 80: Embassy Abuja, in coordination with the Bureau of Overseas Buildings
Operations, should install windows in the cashier booths in Consulate General Lagos. (Action
Embassy Abuja, in coordination with OBO)




                                      46
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Abuja should initiate National Security Decision Directive 38
requests with the Office of Management Policy, Rightsizing, and Innovation for the 10 U.S.
direct-hire positions filled with long-term, rotating temporary duty employees. (Action: Embassy
Abuja)

Recommendation 2: Embassy Abuja should develop reporting plans with a focus on
increasing analytic reporting. (Action: Embassy Abuja)

Recommendation 3: Embassy Abuja, in coordination with the Bureau of International
Information Programs, should determine whether to use the moveable space program module or
transfer the module to another post. (Action: Embassy Abuja, in coordination with IIP)

Recommendation 4: Embassy Abuja should report to the Bureau of Consular Affairs on the
steps taken to implement the recommendations contained in the report of the consular
management assistance team that visited Nigeria in February 2012. (Action: Embassy Abuja)

Recommendation 5: Embassy Abuja should distribute a professionally produced pamphlet
outlining the rights of workers in the United States to all applicants for nonimmigrant worker or
education visas. (Action: Embassy Abuja)

Recommendation 6: Embassy Abuja should implement controls so that the two consular
sections submit monthly Visas Viper activity reports promptly. (Action: Embassy Abuja)

Recommendation 7: Embassy Abuja should require that assistant regional security officer-
investigators spend 80 percent of their time on border security. (Action: Embassy Abuja)

Recommendation 8: Embassy Abuja should draft, coordinate, and publish management
policies applicable to the entire mission in an easily retrievable format on the embassy Web site.
(Action: Embassy Abuja)

Recommendation 9: Embassy Abuja should implement a consistent means of communication
with the mission community on administrative support issues. (Action: Embassy Abuja)

Recommendation 10: Embassy Abuja should update the duty officer handbook and post it on
the embassy Web site. (Action: Embassy Abuja)

Recommendation 11: Embassy Abuja should implement periodic orientation briefings for
duty officers on their responsibilities and required actions in case of a crisis. (Action: Embassy
Abuja)

Recommendation 12: Embassy Abuja should establish a travel and visitors unit. (Action:
Embassy Abuja)

Recommendation 13: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should settle the unresolved warranty claims for the chiller and air handling
units at Consulate General Lagos. (Action: OBO, in coordination with Embassy Abuja)

                                        47
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should fund replacement generators for the consulate compound. (Action: OBO,
in coordination with Embassy Abuja)

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should plan to replace the current logistics center with warehouse facilities
colocated with or near the new consulate compound project in Lagos. (Action: OBO, in
coordination with Embassy Abuja)

Recommendation 16: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should evaluate the feasibility of a build-to-lease project to replace the chief of
mission residence. (Action: OBO, in coordination with Embassy Abuja)

Recommendation 17: Embassy Abuja should expand use of the government purchase card
program for simplified acquisition purchases. (Action: Embassy Abuja)

Recommendation 18: Embassy Abuja should cease the use of appropriated funds to procure or
support personal satellite television services. (Action: Embassy Abuja)

Recommendation 19: Embassy Abuja, in coordination with the Bureau of Administration,
should implement a trafficking-in-persons monitoring program. (Action: Embassy Abuja, in
coordination with A)

Recommendation 20: Embassy Abuja, in coordination with the Bureau of Administration and
the Foreign Service Institute, should schedule training for contracting officers and contracting
officer’s representatives on how to monitor contractors compliance with the FAR 52.222.50
clause.(Action: Embassy Abuja, in coordination with A and FSI)

Recommendation 21: Embassy Abuja, in coordination with the Bureau of Administration,
should ratify all unauthorized commitments. (Action: Embassy Abuja, in coordination with the
A)

Recommendation 22: Embassy Abuja should enter complete property records for boats and
motors used in Lagos into the Integrated Logistics Management System as capitalized property.
(Action: Embassy Abuja)

Recommendation 23: Embassy Abuja should review and revise position descriptions for
locally employed staff members assigned to the warehouse. (Action: Embassy Abuja)

Recommendation 24: Embassy Abuja should prepare the DS-1775 monthly fuel consumption
report, including calculations for average kilometers per liter mileage rates, for each vehicle and
investigate any irregularities immediately. (Action: Embassy Abuja)

Recommendation 25: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abuja, should repair or replace the diesel storage tanks on the embassy compound as
soon as possible to prevent environmental damage from leaks. (Action: OBO, in coordination
with Embassy Abuja)



                                       48
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 26: Embassy Abuja should update its TMTHREE-Welcome to Post cables
with realistic time estimates for receipt of employee shipments. (Action: Embassy Abuja)

Recommendation 27: Embassy Abuja should implement a system to provide customers with
weekly status updates on shipments. (Action: Embassy Abuja)

Recommendation 28: Embassy Abuja should prepare a competitive solicitation for local
packing, crating, and shipping services. (Action: Embassy Abuja)

Recommendation 29: Embassy Abuja should update and republish a comprehensive
countrywide motor vehicle policy. (Action: Embassy Abuja)

Recommendation 30: Embassy Abuja should limit work hours for drivers to a maximum of 10
hours per day. (Action: Embassy Abuja)

Recommendation 31: (b) (5)


Recommendation 32: Embassy Abuja should improve the efficiency of housing assignments
by meeting the International Cooperative Administrative Support Services uniform service
standard for make ready and occupancy of housing by new arrivals during the summer and
winter transfer cycles. (Action: Embassy Abuja)

Recommendation 33: Embassy Abuja should implement a rigorous program to oversee make-
ready work so that embassy housing is clean, safe, and in good repair upon occupancy. (Action:
Embassy Abuja)

Recommendation 34: Embassy Abuja should update the mission’s housing handbook to
include information for all customers. (Action: Embassy Abuja)

Recommendation 35: Embassy Abuja should facilitate at least monthly meetings of the
interagency housing board in Lagos. (Action: Embassy Abuja)

Recommendation 36: Embassy Abuja should require the interagency housing board in Lagos
to name a new chairperson. (Action: Embassy Abuja)

Recommendation 37: Embassy Abuja should include all required documentation in the lease
files in Lagos. (Action: Embassy Abuja)

Recommendation 38: Embassy Abuja should implement a comprehensive routine
maintenance and repair plan with adequate landlord liaison and contractor oversight so that
residential repairs are completed properly and on time. (Action: Embassy Abuja)

Recommendation 39: Embassy Abuja should establish a formal safety and health standing
committee with regular meetings in Lagos. (Action: Embassy Abuja)

Recommendation 40: Embassy Abuja should implement a formal certification process to
document that all residential properties in Lagos meet Department safety, health, and
environmental requirements before occupancy. (Action: Embassy Abuja)

                                       49
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 41: Embassy Abuja, in coordination with the Bureau of African Affairs,
should develop a comprehensive recruitment strategy for U.S. direct-hire officers. (Action:
Embassy Abuja, in coordination with AF)

Recommendation 42: Embassy Abuja should update recruitment materials at the Overseas
Briefing Center. (Action: Embassy Abuja)

Recommendation 43: Embassy Abuja, in coordination with the Bureau of Human Resources,
should move the deputy human resources officer (position number 51-120003) to Consulate
General Lagos. (Action: Embassy Abuja, in coordination with DGHR)

Recommendation 44: Embassy Abuja should designate one U.S. direct-hire employee to be its
expert on local medical insurance, who will be the interlocutor with the locally employed staff
committee, the Department of State, and the Ambassador. (Action: Embassy Abuja)

Recommendation 45: The Bureau of Human Resources, in coordination with Embassy Abuja,
should eliminate the requirement for locally employed staff to make co-payments up front under
the medical insurance plan. (Action: DGHR, in coordination with Embassy Abuja)

Recommendation 46: Embassy Abuja, in coordination with the Bureau of Human Resources,
should examine all components of the new medical insurance plan to ensure it is in the best
interest of the U.S. Government. (Action: Embassy Abuja, in coordination with DGHR)

Recommendation 47: Embassy Abuja should meet monthly with the locally employed staff
committee for input on work life and employment issues. (Action: Embassy Abuja)

Recommendation 48: Embassy Abuja should brief the locally employed staff committee on
how salary and benefits are determined in the local compensation plan. (Action: Embassy Abuja)

Recommendation 49: Embassy Abuja should post current versions of the local compensation
plan and the Foreign Service National Handbook on its Web site. (Action: Embassy Abuja)

Recommendation 50: Embassy Abuja, in coordination with the Bureau of Human Resources,
should determine whether the embassy is eligible for a waiver to the locally employed staff
salary freeze. (Action: Embassy Abuja, in coordination with DGHR)

Recommendation 51: Embassy Abuja should publish a clear and comprehensive eligible
family member recruitment and hiring policy on its Web site that describes the hiring process
and timelines. (Action: Embassy Abuja)

Recommendation 52: Embassy Abuja should inform eligible family members who are
interested in employment of the need for security clearances during their preliminary outreach
efforts and should follow up with the Department of State once the security clearance paperwork
has been submitted. (Action: Embassy Abuja)

Recommendation 53: The Bureau of Human Resources should conduct a limited review of the
locally employed staff position grades at Embassy Abuja and Consulate General Lagos. (Action:
DGHR)


                                       50
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 54: Embassy Abuja should publish a comprehensive overtime policy,
including an explanation of compensatory time and conversion of compensatory time to salary
payments. (Action: Embassy Abuja)

Recommendation 55: Embassy Abuja should require that the Broadcasting Board of
Governors become an International Cooperative Administrative Support Services subscriber.
(Action: Embassy Abuja)

Recommendation 56: Embassy Abuja should determine whether using the International
Cooperative Administrative Support Services temporary duty module or direct charging is more
advantageous to the U.S. Government. (Action: Embassy Abuja)

Recommendation 57: Embassy Abuja should determine whether outsourcing voucher
processing would result in cost savings. (Action: Embassy Abuja)

Recommendation 58: (b) (5)


Recommendation 59: (b) (5)



Recommendation 60: Embassy Abuja should implement and publicize a comprehensive
sponsor program for new U.S. direct-hire employees and their families. (Action: Embassy
Abuja)

Recommendation 61: Embassy Abuja should implement an annual calendar and planning
template for an embassy orientation program and conduct the orientation a minimum of once a
year. (Action: Embassy Abuja)

Recommendation 62: Embassy Abuja should establish a template for an emergency
preparedness seminar and conduct the seminar at least once a year. (Action: Embassy Abuja)

Recommendation 63: Embassy Abuja should implement a plan to empower local nurses to
take more responsibility. (Action: Embassy Abuja)

Recommendation 64: Embassy Abuja should include in the Welcome to Post cable specific
information on the challenges of obtaining medicines in Nigeria and advise employees to bring at
least 6 months of personal medications with them. (Action: Embassy Abuja)

Recommendation 65: Embassy Abuja should use the employee association to facilitate
Internet and cable television service to U.S. direct-hire employees. (Action: Embassy Abuja)

Recommendation 66: Embassy Abuja should designate the financial management office as the
billing office for all embassy transactions. (Action: Embassy Abuja)

Recommendation 67: Embassy Abuja should monitor and solicit tardy invoices. (Action:
Embassy Abuja)


                                      51
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 68: (b) (5)



Recommendation 69: Embassy Abuja should conduct a comprehensive review of
management controls and change procedures as necessary to tighten internal controls, using the
chief of mission certification risk assessment questionnaires as a starting point. (Action:
Embassy Abuja)

Recommendation 70: (b) (5)


Recommendation 71: Embassy Abuja should negotiate blanket purchase agreements with
local vendors. (Action: Embassy Abuja)

Recommendation 72: Embassy Abuja should conduct monthly cash counts, require that
verification officers complete exhibit 12C of the cashier user guide, and include a copy with the
subcashier records. (Action: Embassy Abuja)

Recommendation 73: Embassy Abuja should bring oversight of the locally employed staff
certifying officer into compliance with Department of State regulations. (Action: Embassy
Abuja)

Recommendation 74: Embassy Abuja should bring its property disposal procedures into
compliance with Department of State regulations. (Action: Embassy Abuja)

Recommendation 75: Embassy Abuja should revise its delegation of authorities memorandum
to identify a gifts officer from the general services office. (Action: Embassy Abuja)

Recommendation 76: Embassy Abuja should implement and publish a gifts policy. (Action:
Embassy Abuja)

Recommendation 77: Embassy Abuja should provide consular cashiers with adequate cash
advances to perform their duties. (Action: Embassy Abuja)

Recommendation 78: Embassy Abuja should perform required nonimmigrant adjudication
reviews. (Action: Embassy Abuja)

Recommendation 79: Embassy Abuja should instruct the country consular coordinator to
review weekly the machine-readable visa fee receipts for the entire country. (Action: Embassy
Abuja)

Recommendation 80: Embassy Abuja, in coordination with the Bureau of Overseas Buildings
Operations, should install windows in the cashier booths in Consulate General Lagos. (Action
Embassy Abuja, in coordination with OBO)




                                       52
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Abuja should appoint a Foreign Service national
Equal Employment Opportunity liaison and publicize the contact information.

Informal Recommendation 2: Embassy Abuja should review and certify that all position
descriptions for the locally employed staff in the public affairs section are up to date.

Informal Recommendation 3: Embassy Abuja should require the two new public affairs
officers in Lagos to reapply for new grants officer certificates of appointment with the Office of
the Procurement Executive.

Informal Recommendation 4: Embassy Abuja should arrange for additional grants officer’s
representative training for the locally employed staff in the public affairs section at Consulate
General Lagos.

Informal Recommendation 5: Embassy Abuja should require that the country public affairs
officer improve communications within the mission’s public affairs sections by involving
employees in the discussion of policy and program issues.

Informal Recommendation 6: Embassy Abuja should coordinate mission nonimmigrant visa
appointments through the country consular coordinator so that wait times are consistent within
Nigeria.

Informal Recommendation 7: Embassy Abuja should convene a consular conference to
discuss better coordination of policies, procedures, and personnel.

Informal Recommendation 8: Embassy Abuja should implement a professional development
program for entry-level consular officers.

Informal Recommendation 9: Embassy Abuja should establish a plan that allocates
nonconsular resources, as required, to eliminate the nonimmigrant visa appointment backlog.

Informal Recommendation 10: Embassy Abuja should revise visa processing procedures with
the goal of increasing the efficiency of operations.

Informal Recommendation 11: Embassy Abuja should allocate a workspace in the consular
section for the assistant regional security officer-investigators.

Informal Recommendation 12: Embassy Abuja should review consular signage, beginning
with directional signs inside the consular waiting room.


                                       53
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Abuja should improve the visa intake procedures at
Consulate General Lagos.

Informal Recommendation 14: Embassy Abuja should study DNA testing results to see
whether there are other ways to reliably confirm biological relationships.

Informal Recommendation 15: Embassy Abuja should require that all communications to the
embassy community from management subsections are cleared by other affected subsections and
approved by the management officer or counselor.

Informal Recommendation 16: Embassy Abuja should require that all management
communications to the embassy community are cleared by the regional security officer, the
embassy management counselor, and the consulate management officer, and that all regional
security office communications to the community are cleared by the management officer and
management counselor.

Informal Recommendation 17: Embassy Abuja should require the management counselors
and regional security officers in Abuja and Lagos to meet weekly.

Informal Recommendation 18: Embassy Abuja should establish weekly digital
videoconference or teleconference meetings between the management counselor in Abuja and
the management officer in Lagos.

Informal Recommendation 19: Embassy Abuja should facilitate the receipt of cell phones for
all eligible family members.

Informal Recommendation 20: Embassy Abuja should develop a comprehensive transition
plan for moving to the new residential mega-compound and communicate the information widely
through the embassy community.

Informal Recommendation 21: Embassy Abuja should use more locally employed staff and
fewer U.S. direct-hire human resources staff to support Embassy Malabo.

Informal Recommendation 22: Embassy Abuja should post current locally employed staff
salary schedules on its Web site.

Informal Recommendation 23: Embassy Abuja should determine whether separation
payments are in accordance with local law and practice.

Informal Recommendation 24: Embassy Abuja should determine whether the locally
employed staff is eligible for special conditions of work compensation.

Informal Recommendation 25: Embassy Abuja should conduct surveys for housing,
education, leave, meals, and transportation allowances.

Informal Recommendation 26: Embassy Abuja should determine whether the locally
employed staff retirement plan is in accordance with local law and practice.

Informal Recommendation 27: Embassy Abuja should publish a clear and comprehensive
special immigrant visa policy on its Web site.
                                               54
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 28: Embassy Abuja should revise and republish its locally
employed staff grievance procedure.

Informal Recommendation 29: Embassy Abuja should implement timely payment procedures
for eligible family member employees.

Informal Recommendation 30: Embassy Abuja should assess and file electronic copies of
applications and supporting documentation and print the documents only when there is no other
alternative.

Informal Recommendation 31: Embassy Abuja should make available to members of the
awards committee all nominations submitted and the awards history of at least 3 years for each
nominee and require written clearance of each member of the awards committee on the final list
of awards.

Informal Recommendation 32: Embassy Abuja should publish an awards policy cleared by the
International Cooperative Administrative Support Services budget committee.

Informal Recommendation 33: Embassy Abuja should hold joint embassy and consulate
financial management staff meetings by video or teleconference.

Informal Recommendation 34: Embassy Abuja should coordinate budget planning by
providing funding information to all International Cooperative Administrative Support Services
providers and establishing consensus on spending priorities.

Informal Recommendation 35: Embassy Abuja should designate the information management
officer as the rating officer for the information systems officer at Consulate General Lagos.

Informal Recommendation 36: Embassy Abuja should include oversight of the information
operations at Consulate General Lagos in the information management officer’s work
requirements statement.

Informal Recommendation 37: Embassy Abuja should create an eligible family member
position to augment the Consulate General Lagos information management staff.

Informal Recommendation 38: Embassy Abuja should direct Consulate General Lagos to
reduce information program center paper files and holdings.

Informal Recommendation 39: (b) (5)


Informal Recommendation 40: (b) (5)



Informal Recommendation 41: (b) (5)


Informal Recommendation 42: (b) (5)

                                      55
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 43: (b) (5)


Informal Recommendation 44: (b) (5)


Informal Recommendation 45: (b) (5)


Informal Recommendation 46: (b) (5)



Informal Recommendation 47: Embassy Abuja should direct Consulate General Lagos to
dispose of excess radio, telephone, and computer equipment stored at the consulate warehouse.

Informal Recommendation 48: Embassy Abuja should direct Consulate General Lagos to
implement a schedule to deploy new computer workstations and monitors currently stored at the
consulate warehouse.

Informal Recommendation 49: (b) (5)




                                      56
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                    Name      Arrival Date

Ambassador                                            Terence P. McCulley           10/10
Deputy Chief of Mission                                James P. McAnulty             1/11
Constituent Post
    Consulate General Lagos
    Consul General                                      Jeffrey J. Hawkins            8/12
    Country Consular Coordinator                          Daphne M. Titus             8/12
    Foreign Agricultural Service                          Russell J. Nicely           7/10
    Foreign Commercial Service                           Rebecca Armand               8/10
    Federal Bureau of Investigation/Office of
    the Legal Attaché                                     Victor D. Lloyd            7/12
    Drug Enforcement Agency                             Peter K. Lampkins           11/11
Chiefs of Sections:
  Management                                               Tedla Y. Yitna             8/11
  Consular                                                   Carol A. Cox             8/11
  Political                                            Gregory F. Lawless             8/12
  Economic                                             Douglas P. Climan              6/12
  Overseas Buildings Operations                         William L. Young
  Public Affairs                                          Melissa G. Ford           10/11
  Regional Affairs                                       Kevin L. Higgins            7/11
  Regional Security                                             John Bray           10/12
Other Agencies:
  Department of Treasury                                 Phillip W. Morris            8/11
  Defense Attaché Office                            Co. Ryan P. McMullen              9/11
  Office of Defense Cooperation                            Kenneth B. Ivy             9/12
  Centers for Disease Control and Prevention    Okechukwu C. Nwanyanwu                9/10
  U.S. Agency for International Development                 Dana Mansuri              9/10




                                      57
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ARSO-I            Assistant regional security officer-investigator

CDC               Centers for Disease Control and Prevention

DCM               Deputy chief of mission

Department        U.S. Department of State

EFM               Eligible family member

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

FAR               Federal Acquisition Regulation

HF                High frequency

ICASS             International Cooperative Administrative Support Services

IM                Information management

LE                Locally employed (staff)

OBO               Bureau of Overseas Buildings Operations

OIG               Office of Inspector General

PAS               Public affairs section

PEPFAR            President's Emergency Plan for AIDS Relief

USAID             U.S. Agency for International Development

VHF               Very high frequency




                             58
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
